                        U.S. Department of Agriculture

                           Office of Inspector General
                                    Southwest Region




             Audit Report


Animal and Plant Health Inspection Service
  Controls Over Issuance of Genetically
  Engineered Organism Release Permits




                                     Audit 50601-8-Te
                                      December 2005
Executive Summary
Animal and Plant Health Inspection Service Controls Over Issuance of Genetically
Engineered Organism Release Permits (Audit Report 50601-8-Te)

Results in Brief   The number of approved applications to field test genetically engineered
                   (GE) crops in the United States has increased significantly since 1986, when
                   the Department began regulating experimental GE plants. Since that time, the
                   U.S. Department of Agriculture (USDA) has approved over 10,600
                   applications for more than 49,300 field sites. Biotechnology companies are
                   investing millions of dollars to develop new GE plants, some with the goal of
                   commercializing them for use as food, feed, industrial compounds, and
                   medicines. The rapid growth of agricultural biotechnology, and its prominent
                   position in the public eye, increases USDA’s responsibility to ensure that
                   regulated GE plants, including their pollen and seeds, do not persist in the
                   environment. However, as the number of approved applications to field test
                   new GE plants continues to rise, we are concerned that the Department’s
                   efforts to regulate those crops have not kept pace.

                   To evaluate the Animal and Plant Health Inspection Service’s (APHIS)
                   controls over releases and movements of regulated GE plants, we visited 91
                   field test sites in 22 States that were either planted or harvested. We inspected
                   the sites for compliance with APHIS’ requirements for the growing or
                   postharvest season. We found that APHIS, the USDA agency that oversees
                   biotechnology regulatory functions for the Department, needs to strengthen
                   its accountability for field tests of GE crops. In fact, at various stages of the
                   field test process—from approval of applications to inspection of fields—
                   weaknesses in APHIS regulations and internal management controls increase
                   the risk that regulated genetically engineered organisms (GEO) will
                   inadvertently persist in the environment before they are deemed safe to grow
                   without regulation.

                   Accountability for GE Crops Needs Improvement

                   Depending on the nature of the GE crop, APHIS authorizes field tests
                   through two methods: permits and notifications. For field tests of high-risk
                   GE crops, such as those designed to produce pharmaceutical and industrial
                   compounds, APHIS issues permits. For GE crops that APHIS considers
                   low-risk based on its scientific experience with the plants, applicants can use
                   the more streamlined notification process. We found, however, that APHIS
                   lacks basic information about the field test sites it approves and is responsible
                   for monitoring, including where and how the crops are being grown, and
                   what becomes of them at the end of the field test.

                   •    Of primary concern, the precise locations of all GE field test sites planted
                        in the United States are not always known. After authorizing field tests,

USDA/OIG-A/50601-8-Te                                                                        Page i
                        APHIS does not follow up with all permit and notification holders to find
                        out exactly where the fields have been planted or if they have been
                        planted at all. In some cases, APHIS may only be aware of the State and
                        county where an applicant plans to conduct a field test. Without knowing
                        the locations of all planted field test sites, including their global
                        positioning system (GPS) coordinates, APHIS cannot effectively monitor
                        permit and notification holders’ compliance with field test requirements.
                        In January 2005, APHIS issued a memorandum that requested
                        notification holders to voluntarily submit GPS coordinates or other
                        information to identify the field test after planting.

                   •    Before approving field tests, APHIS does not review notification
                        applicants’ containment protocols, which describe how the applicant
                        plans to contain the GE crop within the field test site and prevent it from
                        persisting in the environment. Instead, APHIS allows notification holders
                        to provide the protocols verbally if their field test sites are selected for
                        inspection. Since notifications comprise the vast majority of field test
                        authorizations, this policy undermines both the field test approval and
                        inspection processes.

                   •    At the conclusion of the field test, APHIS does not require permit holders
                        to report on the final disposition of GE pharmaceutical and industrial
                        harvests, which are modified for nonfood purposes and may pose a threat
                        to the food supply if unintentionally released. As a result, we found that
                        two large harvests of GE pharmaceutical crops remained in storage at the
                        field test sites for over a year without APHIS’ knowledge or approval of
                        the storage facility.

                   In addition, APHIS does not thoroughly document its reviews of applications
                   in the official files. Specifically, APHIS biotechnologists do not sufficiently
                   document their review process and scientific basis for approving initial field
                   test applications. APHIS also does not effectively track information required
                   during the field tests, including approved applicants’ progress reports, which
                   should contain the results of field tests, including any harmful effects on the
                   environment. Although we noted that many permit and notification holders
                   submit these required progress reports late or not at all, APHIS does not
                   always follow up to obtain the information.

                   Weaknesses in Inspections and Enforcement

                   APHIS’ field test inspection process can be improved in a number of areas.
                   Inspection requirements are vague and there is a lack of coordination between
                   the two APHIS units responsible for the inspection program, Biotechnology
                   Regulatory Services (BRS) and Plant Protection and Quarantine (PPQ). BRS
                   is responsible for overall management of the program, while PPQ officers
                   perform most of the actual inspections of GE field test sites. We found that
                   BRS does not have a formal, risk-based process for selecting individual sites

USDA/OIG-A/50601-8-Te                                                                       Page ii
                   for inspection, and that PPQ does not complete all of the inspections BRS
                   requests, including inspections of pharmaceutical and industrial crops.

                   For example, we found that PPQ did not inspect all pharmaceutical and
                   industrial field test sites five times during the 2003 growing season, as
                   APHIS has announced to the public. APHIS has also stated publicly that
                   pharmaceutical and industrial field test sites would be inspected twice during
                   the postharvest period, or the year following the end of the field test, during
                   which the field must be monitored for regrowth of the GE crop. In one case,
                   a violation at a pharmaceutical field test site in our sample went undetected
                   because PPQ did not perform the required inspections at that site during the
                   2003 postharvest monitoring period.

                   Further contributing to the inspection problem, neither BRS nor PPQ kept
                   track of the total number of inspections that are actually completed.
                   Although APHIS agreed to improve its tracking of inspection reports
                   following an Office of Inspector General (OIG) audit more than 10 years ago,
                   the agency continued to lack an effective, comprehensive management
                   information system to account for all inspections and their outcomes. In fact,
                   we found 11 violations that were not recorded in BRS’ compliance
                   infractions database at the time of our audit, even though they were reported
                   to BRS or could have been identified from information BRS already had.
                   APHIS took administrative action on only 1 of those 11 violations.

                   APHIS subsequently advised us that in September 2004, it had implemented
                   some changes in the inspection process that included an agreement between
                   BRS and PPQ that clarified responsibility for conducting inspections. BRS
                   also developed a methodology for selecting notifications for inspection based
                   upon risk. However, our review of the agreement between BRS and PPQ
                   found that it did not include inspections of nonpharmaceutical and
                   nonindustrial permits. BRS continues to select entire permits and
                   notifications for PPQ to inspect which may cover numerous field test sites.
                   Consequently, BRS has no assurance that the highest risk field sites are
                   inspected. Also, BRS initiated an interim inspection tracking system in
                   February 2005, during our audit, but the effectiveness of this system has not
                   been reviewed or tested by the OIG.

                   Even if APHIS improves its inspection process, we found that APHIS has not
                   updated its regulations to reflect the Plant Protection Act of 2000, under
                   which APHIS carries out its biotechnology oversight duties. Also, an Office
                   of the General Counsel official advised us that APHIS currently does not
                   have legislative authority to hold applicants financially responsible for costs
                   incurred by USDA due to an unauthorized release of regulated GEOs.
                   Because APHIS cannot require applicants to provide proof of financial
                   responsibility before it authorizes field tests, USDA may have to bear the
                   expense of removing GE material from the environment in the event of an
                   unintentional release.

USDA/OIG-A/50601-8-Te                                                                     Page iii
                   Inadequate Guidance for Containing GE Crops and Seeds

                   Finally, we found that APHIS guidance should be strengthened to prevent the
                   persistence of GE crops outside the field test. For example, APHIS does not
                   specify when GE crops must be destroyed, or “devitalized,” following the
                   field test. Approved applicants sometimes allow harvested crops to lie in the
                   field test site for months at a time, their seeds exposed to animals and the
                   elements. Also, because APHIS has not specifically addressed the need to
                   physically restrict edible GE crops from public access, we found a regulated
                   edible GE crop, which had not gone through the Food and Drug
                   Administration’s regulatory process for approval for human consumption,
                   growing where they could easily be taken and eaten by passersby.

                   GE crops have come to play an important role in American agriculture, and
                   many crops currently being field tested will eventually be approved as safe to
                   grow and eat without regulation. However, while they remain under USDA’s
                   jurisdiction, GE crops and harvests—especially those developed for
                   pharmaceutical and industrial purposes—must be carefully regulated.
                   Although we noted relatively few violations of existing requirements at the
                   time of our field visits, we concluded that APHIS’ current regulations,
                   policies, and procedures do not go far enough to ensure the safe introduction
                   of agricultural biotechnology. To meet its strategic goals and inspire public
                   confidence in USDA’s biotechnology regulatory program, APHIS must
                   continue to refine and strengthen the GEO field release process.

Recommendations
In Brief           To maintain accountability for regulated GE crops, APHIS needs to require
                   more information both prior to and during the field test. Specifically, APHIS
                   needs to:

                   •    obtain GPS coordinates of all planted field test sites, enabling APHIS to
                        identify where regulated GE crops are planted at any given time;
                   •    obtain all applicants’ scientific protocols for conducting field tests;
                   •    obtain reports on the final disposition of high-risk pharmaceutical and
                        industrial harvests; and
                   •    seek legislative authority to require permit applicants, based on the level
                        of risk, to provide proof of financial responsibility, in the event of an
                        unauthorized GEO release.

                   To strengthen monitoring of GE field test sites, APHIS needs to formalize its
                   inspection process and assign and coordinate the responsibilities of BRS and
                   PPQ. APHIS also needs to update its regulations and develop a
                   comprehensive management information system for tracking the receipt and
                   review of all information associated with GEO release permits and
                   notifications.


USDA/OIG-A/50601-8-Te                                                                      Page iv
                   Finally, to make sure that approved applicants take appropriate steps to
                   prevent GE crops from proliferating outside the field test site, APHIS needs
                   to develop guidance that specifically addresses devitalization deadlines and
                   edible crops.

Agency Response    In its response dated November 2, 2005, APHIS officials generally agreed
                   with OIG’s recommendations and have completed or began implementing 23
                   of the 28 recommendations in the report.

                   APHIS is in the process of requiring GPS coordinates of each field site on the
                   28-day planting reports, requiring the reporting of the disposal of GE
                   pharmaceutical and industrial harvest in the field report submitted 21 days
                   prior to harvest, and obtaining a determination from the Office of the
                   Secretary to seek legislative authority to require applicants to provide proof
                   of financial responsibility in the event of an unauthorized GEO release.

                   APHIS has established a Memorandum of Understanding (MOU) between
                   BRS and PPQ to formalize inspection responsibilities, better coordinate
                   inspections in regions, and ensure inspections are completed in a timely
                   manner. APHIS is in the process of updating, consolidating and clarifying its
                   regulations in regards to GE regulated field releases and incorporating
                   provisions of the Plant Protection Act of 2000. APHIS has also designed a
                   single management information system for tracking permit and notification
                   inspections and field test reports.

                   APHIS disagreed with recommendations associated with obtaining
                   notification applicants’ scientific protocols for conducting field tests,
                   reviewing these protocols by biotechnologists, and distributing these
                   protocols to PPQ officers to use in conducting inspections of field sites under
                   notification. APHIS also contends that the current system of performance–
                   based regulatory standards for notifications is effective at protecting the
                   American agriculture. Lastly, APHIS did not agree with developing policy
                   guidelines for restricting public access to edible regulated crops when
                   conducting field tests and with developing policies and procedures for
                   selecting specific field test sites for inspection based on risk.

OIG Position       We generally concur with APHIS’ response for 23 of the 28
                   recommendations in the report and have reached management decision on
                   one recommendation. Actions necessary to reach management decision on
                   the remaining recommendations are discussed in the Findings and
                   Recommendations sections.

                   APHIS stated that its current system of performance–based regulatory
                   standards for notifications is effective at protecting American agriculture.
                   We believe that these performance-based regulatory standards do not
                   preclude submission of protocols to APHIS prior to approval of the field test.
                   By not obtaining copies of the protocols, APHIS is relinquishing its

USDA/OIG-A/50601-8-Te                                                                      Page v
                   regulatory responsibility in favor of self-certification by the notification
                   applicants—namely, the applicants merely certify in their notification
                   applications that they will meet the performance standards. Further,
                   approved protocols are important control documents that PPQ officers should
                   receive from BRS before they perform an inspection.

                   Although APHIS disagreed with developing policy guidelines for restricting
                   public access to field tests of edible regulated GE crops, APHIS’ strategic
                   plan states that its mission includes protecting human health and safety. The
                   edible GE crops under APHIS’ jurisdiction are regulated and, therefore, we
                   believe that access should be controlled. Edible regulated GE crops cannot be
                   grown without restrictions and should not be available even for unauthorized
                   human consumption, while still regulated.

                   Although two APHIS units, BRS and PPQ, share responsibility for
                   inspections of field test sites, BRS is responsible for the overall inspection
                   process. However, under the current site selection process, once BRS has
                   selected a notification or permit for inspection PPQ is then allowed to choose
                   the specific inspection site. The National Academy of Sciences states that
                   risks must be assessed according to the organism, trait, and environment.
                   Thus, the environment is an important risk factor which BRS should use in
                   the selection of field sites for inspection to ensure that the highest risk sites
                   are always selected.




USDA/OIG-A/50601-8-Te                                                                       Page vi
Abbreviations Used in This Report

APHIS          Animal and Plant Health Inspection Service
BBEP           Biotechnology, Biologics and Environmental Protection
BIDS           Biotechnology Integrated Database System
BRS            Biotechnology Regulatory Services
CFR            Code of Federal Regulations
EIS            Environmental Impact Statement
GE             Genetically engineered
GEO            Genetically engineered organism
GPS            Global positioning system
MOU            Memorandum of Understanding
OIG            Office of Inspector General
PPQ            Plant Protection and Quarantine
USDA           United States Department of Agriculture




USDA/OIG-A/50601-8-Te                                                  Page vii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report .....................................................................................................vii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 6

    Section 1. Overall Assessment........................................................................................................... 6

        Finding 1             APHIS Needs a More Cohesive Formal Process to Manage GEO Field
                              Releases................................................................................................................... 6
                                  Recommendation 1 ........................................................................................ 10
                                  Recommendation 2 ........................................................................................ 10
                                  Recommendation 3 ........................................................................................ 11
                                  Recommendation 4 ........................................................................................ 11
                                  Recommendation 5 ........................................................................................ 12

    Section 2. Application Process ........................................................................................................ 13

        Finding 2             Locations of Planted GE Field Test Sites Are Not Always Known...................... 14
                                  Recommendation 6 ........................................................................................ 17
                                  Recommendation 7 ........................................................................................ 18
                                  Recommendation 8 ........................................................................................ 18
                                  Recommendation 9 ........................................................................................ 19
        Finding 3             Written Field Test Protocols Are Not Always Obtained From Applicants........... 20
                                  Recommendation 10 ...................................................................................... 22
                                  Recommendation 11 ...................................................................................... 23
                                  Recommendation 12 ...................................................................................... 23
        Finding 4             Scientific Reviews of Field Test Applications Are Not Sufficiently
                              Documented .......................................................................................................... 24
                                  Recommendation 13 ...................................................................................... 25

    Section 3. Management and Oversight of Field Tests................................................................... 27

        Finding 5             APHIS Needs to Establish an Effective Inspection Program to Monitor
                              Regulated GE Crops.............................................................................................. 28
                                  Recommendation 14 ...................................................................................... 32
                                  Recommendation 15 ...................................................................................... 33
                                  Recommendation 16 ...................................................................................... 33
                                  Recommendation 17 ...................................................................................... 34
                                  Recommendation 18 ...................................................................................... 34
        Finding 6             Field Test Progress Reports Are Not Adequately Monitored ............................... 35
                                  Recommendation 19 ...................................................................................... 39
USDA/OIG-A/50601-8-Te                                                                                                                        Page viii
                                  Recommendation 20 ...................................................................................... 39
                                  Recommendation 21 ...................................................................................... 40
                                  Recommendation 22 ...................................................................................... 40
                                  Recommendation 23 ...................................................................................... 40
        Finding 7             APHIS Lacks Controls Over Final Disposition of GE Pharmaceutical
                              Harvests................................................................................................................. 41
                                  Recommendation 24 ...................................................................................... 42
                                  Recommendation 25 ...................................................................................... 42
                                  Recommendation 26 ...................................................................................... 43
        Finding 8             GE Crops Were Not Promptly Destroyed ............................................................. 44
                                  Recommendation 27 ...................................................................................... 46

    Section 4. Enforcement Actions ...................................................................................................... 47

        Finding 9             Applicants Are Not Required to Provide Proof of Financial Responsibility ........ 47
                                 Recommendation 28 ...................................................................................... 48

Scope and Methodology........................................................................................................................ 49

Exhibit A- Agency Response ................................................................................................................ 51

Glossary of Terms ................................................................................................................................. 61




USDA/OIG-A/50601-8-Te                                                                                                                         Page ix
Background and Objectives
Background                             Through modern biotechnology, also called genetic engineering, scientists
                                       can transform the genetic makeup and function of one organism by inserting
                                       genetic material from another organism. Agricultural biotechnology
                                       sometimes involves modifying the genetic material of one species with genes
                                       from another species—plant or nonplant—producing transgenic crops with
                                       traits not found in nature or traditional crossbreeding. For example, corn
                                       altered with a bacterial gene to produce its own insecticide has become one of
                                       the most common genetically engineered (GE) crops, along with GE
                                       soybeans and cotton. In addition to food and feed, GE crops are being
                                       developed to produce a variety of pharmaceutical and industrial substances.

                                       In recent years, the number of acres of regulated GE plants for which the U.S.
                                       Department of Agriculture (USDA) has oversight responsibilities has
                                       increased markedly, from over 8,700 acres proposed for 1994 to over 67,000
                                       acres proposed for 2004.

                                       Federal Oversight of GE Crops

                                       USDA shares responsibility for regulating biotechnology in the United States
                                       with two other Federal agencies. The Environmental Protection Agency
                                       oversees GE plants that produce their own pesticides, while the Food and
                                       Drug Administration regulates food and feed products produced from GE
                                       crops. USDA’s Animal and Plant Health Inspection Service (APHIS)
                                       oversees the environmental release of new GE plants and determines whether
                                       they are safe to grow. Within APHIS, the Biotechnology Regulatory Services
                                       (BRS) unit carries out the agency’s biotechnology oversight responsibilities
                                       under the Plant Protection Act of 2000, 1 which replaced the Federal Plant
                                       Pest Act and the Plant Quarantine Act.

                                       APHIS regulations 2 in Title 7, Code of Federal Regulations (CFR), part 340
                                       dated January 1, 2003, focus on whether a genetically engineered organism
                                       (GEO) is a plant pest. Based on APHIS’ broad definition of “plant pest,”
                                       3
                                         almost all GEOs are considered “regulated articles” 4 that must meet APHIS
                                       requirements for introduction into the environment. APHIS approves and
                                       monitors introductions of regulated GE crops—specifically, movements into
                                       and through the United States and field tests. After conducting a field test of a

1
  7 United States Code 7701-7772, dated June 20, 2000
2
  Introduction of Organisms and Products Altered or Produced Through Genetic Engineering Which are Plant Pests or Which There is Reason to Believe
are Plant Pests”
3
  APHIS defines a plant pest as “Any living stage of insects, mites, nematodes, slugs, snails, protozoa, or other invertebrate animals, bacteria, fungi, other
parasitic plants or reproductive parts thereof, viruses; or any organisms similar to or allied with any of the foregoing; or any infectious agents or
substances, which can directly or indirectly injure or cause disease or damage in or to any plants or parts thereof, or any processed, manufactured, or other
products of plants.”
4
  Organisms and products altered or produced through genetic engineering that are plant pests, unclassified organisms, or organisms whose classifications
are unknown.

USDA/OIG-A/50601-8-Te                                                                                                                               Page 1
                                         GEO, developers may petition APHIS, requesting that the article no longer be
                                         regulated under 7 CFR 340, dated January 1, 2003. More than 60 GEOs, such
                                         as Roundup Ready® cotton, corn, and soybeans, have received deregulated
                                         status.

                                         Notifications and Permits: The Approval Process

                                         Before conducting a field trial of a new GE crop, developers must apply for
                                         APHIS approval through one of two processes: notification or permit.

                                         Notifications, the most common application method, are used to introduce
                                         certain familiar GE plants that do not present novel plant pest risks. 5 APHIS
                                         biotechnologists determine whether the GE plants meet the six eligibility
                                         criteria for the notification approach. Specifically, to qualify for introduction
                                         under a notification, the plant must not:

                                         •     be listed as a noxious weed;
                                         •     be transformed with genetic material that has not been stably integrated
                                               into the plant genome;
                                         •     contain genes of unknown function;
                                         •     cause the production of an infectious entity, be toxic, or be intended for
                                               pharmaceutical use;
                                         •     pose a significant risk of creating any new plant virus; and
                                         •     contain genetic material from animal or human pathogens.

                                         Under this streamlined approach, which APHIS began offering in 1993,
                                         applicants must notify APHIS at least 30 days in advance of planting. In
                                         2004, almost 97 percent 6 of all field trials of regulated GE crops were
                                         conducted under notifications.

                                         In comparison to notifications, the permit process—for GE plants that do not
                                         meet the six notification eligibility criteria—requires more detailed
                                         information from the applicant. Applications for permits must be submitted at
                                         least 120 days in advance of the proposed release. Currently, permits are
                                         required for the introduction of transgenic plants that APHIS considers to
                                         pose greater safety risks—for example, those that produce pharmaceutical or
                                         industrial compounds, or those modified with human genes.

                                         To obtain a notification, an applicant must meet certain eligibility and
                                         performance standards. The eligibility standards describe the kinds of
                                         GE plants that can be introduced in a field test. The performance standards
                                         outline general guidelines for planting, growing, harvesting, and shipping


5
    Transgenic plants that meet the eligibility criteria specified in 7 CFR 240.3(b)1-6, dated January 1, 2003
6
    Of 959 total approved applications, 930 were notifications.

USDA/OIG-A/50601-8-Te                                                                                             Page 2
                   GE crops to ensure the plant and its progeny will not persist in the
                   environment outside the field trial.

                   To obtain a permit, an applicant must submit its proposed field test to be
                   reviewed and approved by APHIS on a case-by-case basis. There are no
                   eligibility requirements and no performance standards in the regulations for
                   GE plants grown under permits.

                   Applicants for notifications and permits must develop protocols specifying
                   how they will conduct the field trial to meet the performance standards.
                   Protocols contain information specific to the applicant’s field test, such as:

                   •    how the applicant plans to isolate the GE crop from neighboring non-GE
                        crops (for example, through border rows of non-GE crops);
                   •    how the applicant plans to devitalize (destroy) or otherwise dispose of the
                        crop at the conclusion of the field test; and
                   •    how the applicant plans to monitor the field for volunteers (regrowth of
                        the GE crop on the field test site following the field test).

                    APHIS biotechnologists review permit and notification applications and
                    forward a summary of their review and recommendations to the
                    biotechnology regulatory officials in the State where the field trial is to be
                    conducted. Once those officials have approved the applications, APHIS
                    issues the permits and notifications authorizing the field tests. According to
                    the APHIS website, APHIS approved 45 permits and 1,929 notifications
                    from October 2001 through September 2003. Current APHIS policy allows
                    applicants to file one application for multiple field release sites in many
                    different States.

                   Reporting, Inspections, Movements, and Infractions

                   For both permits and notifications, approved applicants must submit field test
                   results to APHIS within 6 months of the completion of the field test.
                   Depending on the nature of the permit or notification, APHIS may also
                   require approved applicants to submit other progress reports during the field
                   test. Reporting requirements vary depending on the acreage and location of
                   the GE material and the company requesting the permit or notification. The
                   following table shows some of the progress reports APHIS may require.




USDA/OIG-A/50601-8-Te                                                                       Page 3
                   Report Type            Information Included            Required For
                   Planting notice        Advance notice of when          Most pharmaceutical
                                          and where the crop goes in      and industrial permits,
                                          the ground (7-10 days prior     some other permits
                                          to planting)

                   4-week/28-day       Number of plants actually          Most pharmaceutical
                   report              planted, GPS coordinates of        and industrial permits,
                                       the field, distance to nearest     some other permits
                                       sexually compatible crop
                   Harvest/termination Anticipated harvest of the         Most pharmaceutical
                   notice              crop                               and industrial permits,
                                                                          some other permits
                   Monitoring report      Dates of visits to field,       Some permits
                                          number and disposition of
                                          volunteers observed (if any)
                   Field test data/       Methods of observation,         Required by regulation
                   6-month report         resulting data, analysis of     for all permits and
                                          deleterious effects on other    notifications
                                          plants, organisms, and the
                                          environment
                   Notice of decision     Cancellation of a planned       Notifications (requested)
                   not to plant           field test site

                   To ensure that approved applicants are complying with permit and
                   notification conditions, APHIS may conduct inspections of field test sites and
                   storage locations. APHIS’ BRS works with Plant Protection and Quarantine
                   (PPQ), a separate APHIS unit, to monitor field test sites. Although
                   BRS biotechnologists inspect some pharmaceutical field test sites and other
                   sites authorized under permits, PPQ officers conduct most of the inspections.

                   Like field tests, movements of regulated articles, such as GE seeds, are
                   authorized under permits and notifications. Approved applicants must take
                   measures to minimize dissemination of GEOs into the environment during
                   movement and while in the receiving facility. BRS may arrange an inspection
                   of the receiving facility to verify that it is adequate to prevent release of the
                   regulated article into the environment.

                   Failure of applicants to submit complete and accurate information for all
                   permit activities or to comply with performance standards may result in a fine
                   of up to $250,000, imprisonment for up to 5 years, or both. Failure to comply
                   with performance standards under permit or notification conditions can also
                   result in compliance infractions, and the applicant can be ordered to take
                   remedial action to prevent the spread of plant pests and/or be fined.


USDA/OIG-A/50601-8-Te                                                                       Page 4
                                     Evolution of APHIS Biotechnology Oversight

                                     APHIS’ biotechnology regulatory operation has undergone several
                                     reorganizations since its inception in 1987. Prior to 1997, APHIS assigned
                                     biotechnology functions to its Biotechnology, Biologics and Environmental
                                     Protection (BBEP) unit. In 1997, APHIS reassigned those functions to its
                                     PPQ unit. In June of 2002, APHIS consolidated all plant biotechnology
                                     activities into the current biotechnology unit, BRS.

                                     In 1994, USDA’s Office of Inspector General (OIG) issued an audit report 7
                                     to BBEP. The report identified problems with APHIS’ oversight of GEOs—
                                     specifically, a lack of procedures to track inspection reports and follow up on
                                     violations or potential violations. BBEP generally agreed with the
                                     recommendations to improve management and handling procedures and to
                                     create a new management information system for tracking permit and
                                     notification information.

Objectives                           The objectives of our audit were to determine whether APHIS’ controls provide
                                     reasonable assurance that movements and releases of GEOs in the environment
                                     are in accordance with laws, regulations, and departmental procedures, and that
                                     they are effective in minimizing the inadvertent release of GEOs in the
                                     environment. As part of our overall assessment, we evaluated APHIS’
                                     controls over the application process, management and oversight of field
                                     tests, and enforcement.




7
    Audit Report 33099-9-Hy, dated August 1994

USDA/OIG-A/50601-8-Te                                                                                        Page 5
Findings and Recommendations
Section 1. Overall Assessment

Finding 1                              APHIS Needs a More Cohesive Formal Process to Manage GEO
                                       Field Releases

                                       As USDA’s regulatory gatekeeper for GEO field tests and shipments, APHIS
                                       is tasked with establishing effective controls to prevent the inadvertent
                                       release of regulated GE material. APHIS has relied heavily on a case-by-case
                                       assessment of the risks related to each GE field release, and it has assured the
                                       public that its controls over the field test process are rigorous and effective.
                                       However, we found that APHIS’ current approach is not sufficient to manage
                                       field releases of regulated GE crops. At some critical stages of the process,
                                       from the initial review and approval of applications to inspections of field test
                                       sites and enforcement activities, APHIS lacks clear, comprehensive
                                       requirements and effective internal controls to minimize the risk of
                                       inadvertent release of GEOs into the environment.

                                       Since 1986, APHIS has authorized more than 49,300 proposed field tests of
                                       experimental GE crops. According to APHIS officials, even the agency’s
                                       critics have acknowledged that no demonstrable negative environmental
                                       impacts have arisen from the field tests that have been planted. Our field test
                                       site visits indicated that developers of regulated GE crops have, on the whole,
                                       complied with APHIS’ broad requirements for field tests. At the 91 sites 8 we
                                       visited, we found 13 instances of noncompliance at 11 sites. We also learned
                                       of two additional violations at sites we did not visit. The only widespread
                                       violation we identified pertained to 193 movements of GE seeds, which
                                       APHIS allowed to be shipped in nonmetal containers, in violation of its own
                                       requirements.

                                       Our audit revealed that the agency needs to work toward a more cohesive
                                       formal process for managing GEO field releases.

                                       Gaps in Field Test Requirements

                                       We found that APHIS guidance for conducting field tests is neither
                                       consolidated nor comprehensive. APHIS regulations 9 governing field
                                       releases do not include specific requirements to guide applicants during all
                                       phases of the process. To supplement the regulations, APHIS has issued
                                       guidance in various other forms, including Federal Register notices,
                                       memoranda, the APHIS website, and a manual for companies conducting

8
    Selected from a universe of 1,020 field test sites, which we developed (see Scope and Methodology)
9
    7 CFR 340, dated January 1, 2002 and 2003

USDA/OIG-A/50601-8-Te                                                                                           Page 6
                   field tests. Yet, for some critical aspects of the field test process, APHIS has
                   not established any specific requirements, either formal or informal.

                   For example, APHIS has not addressed the need for approved applicants
                   conducting field tests to restrict public access to edible GE crops. Regulated
                   GE crops are not distinguishable from traditional crops and have not been
                   approved as safe to grow without regulation. In the absence of specific
                   guidance, we found that one applicant planted regulated edible GE crops in
                   an open field, where they were accessible to the public from a road and an
                   adjacent nonregulated field.

                   Similarly, APHIS has not addressed the need for approved applicants
                   conducting field tests to:

                   •    provide the exact location of each planted field test site (see Finding 2);
                   •    set a timeframe for disposing of harvests of high-risk GE crops at the end
                        of the field test (see Finding 7); and
                   •    promptly destroy GE crops at the conclusion of the field test so that their
                        seeds do not spread outside the field test site (see Finding 8).

                   By closing these gaps in its existing guidance, APHIS can reduce the
                   probability that GE crops will be inadvertently released into the environment,
                   where some may persist unchecked.

                   Need for Greater Consistency in Communication and Implementation of
                   Policy

                   We found that APHIS’ public policy on the frequency of field test
                   inspections differs from its actual practice. In the March 10, 2003, Federal
                   Register, APHIS announced that it would “increase the number of
                   inspections” during the 2003 growing season so that field test sites planted
                   under pharmaceutical and industrial permits may be inspected seven times—
                   up to five times during the growing season and twice during the postharvest
                   period. In a press conference, an APHIS official demonstrated the agency’s
                   commitment to this goal by reiterating this policy for pharmaceutical crops:
                   “Every test site will be inspected at least five times during the growing
                   season and two times in the following season.” However, for the 2003
                   growing season, APHIS did not conduct five inspections at each
                   pharmaceutical and industrial field test site in our sample (see Finding 5).

                   APHIS has also understated to the public the percentage of inspected sites
                   with compliance infractions. At the time of our audit work, APHIS reported
                   on its website a 1.6 percent noncompliance rate for 7,402 authorizations of
                   field tests. However, we found that “authorizations” represented the total
                   number of approved permits and notifications, not all of which were planted,
                   rather than the number of planted fields inspected by PPQ or reported to
USDA/OIG-A/50601-8-Te                                                                       Page 7
                   APHIS by approved applicants. Since APHIS presents this noncompliance
                   rate as evidence of its monitoring program’s effectiveness, it is critical that
                   APHIS report only the noncompliance rate on planted fields actually
                   inspected by PPQ or reported by approved applicants.

                   In another inconsistency, we found that APHIS disregards its own regulations
                   for shipments of GE seeds. Federal regulations require double metal
                   containers for shipments of regulated GE material, regardless of whether the
                   shipments are made under permits or notifications. According to the
                   regulations, shippers can request a variance from the metal container
                   requirement if they justify their request. On its website and in the user’s
                   manual for introductions, however, APHIS allows shippers to forgo using
                   metal containers for regulated articles shipped under notifications. APHIS
                   also allows permit holders to forgo using metal containers without obtaining
                   formal variances. As a result, we found widespread use of nonmetal
                   containers, such as bags and boxes, for shipping GE seeds. Metal containers
                   were not used for any of the 199 interstate shipments in our sample (81
                   shipments under permits and 118 shipments under notifications). Only 6 of
                   those shipments (2 shipments under a permit and 4 shipments under
                   notifications) received variances from APHIS, leaving 193 shipments in
                   violation of the regulations. To avoid inconsistent interpretation of its
                   regulations, APHIS needs to clarify its regulations for shipments of GE seeds.

                   Enforcement Ability Limited by Incomplete Regulations

                   To make its requirements transparent to the public and enable it to take
                   enforcement action when necessary, APHIS needs to assemble its various
                   pieces of guidance in a comprehensive set of regulations. Especially in the
                   sensitive area of GE crops, APHIS needs to ensure that its field release
                   requirements are complete, consistent, subject to public scrutiny, and
                   enforceable by regulation.

                   We noted that APHIS has not finished updating its regulations to comply
                   with the Plant Protection Act of 2000, which was enacted on June 20, 2000.
                   On July 16, 2001, APHIS partially updated its regulations to include the new
                   authority of the Secretary of Agriculture to subpoena documentary evidence
                   and witnesses to prosecute violators. APHIS still needs to update its
                   regulations to reflect other provisions of the Act, which grant new regulatory
                   authority to the Secretary of Agriculture for controlling noxious weeds. On
                   January 23, 2004, APHIS began the process of updating its regulations by
                   announcing in the Federal Register that it would prepare an environmental
                   impact statement (EIS), in connection with potential changes to the
                   regulations, regarding the movement and release of certain GEOs.




USDA/OIG-A/50601-8-Te                                                                      Page 8
                   Internal Management Needs Improvement

                   Besides clarifying its regulations governing GE crops, APHIS needs to
                   strengthen its internal processes for managing the field release program. Of
                   greatest concern, APHIS’ BRS has divided responsibility for monitoring field
                   test sites between itself and PPQ; although BRS has overall control of the
                   inspection program, it shares the authority to conduct inspections with PPQ.
                   APHIS, however, has not clearly delineated the mutual responsibilities of
                   BRS and PPQ in regard to inspections of GE field test sites. In the absence of
                   an integrated, coordinated process between the two APHIS units, we found
                   that PPQ was not performing the majority of inspections requested by BRS
                   (see Finding 5). Although BRS and PPQ signed a MOU in September 2004,
                   the MOU did not cover inspections of nonpharmaceutical and nonindustrial
                   release permits, as well as movement permits. It also did not commit BRS to
                   provide PPQ with planted notification sites to be inspected, nor did it require
                   PPQ to perform all inspections requested by BRS.

                   Additionally, BRS and PPQ sometimes failed to follow their own internal
                   procedures for reporting and enforcing noncompliance with regulations. We
                   found that PPQ officers did not always prepare inspection reports or report
                   violations found during our joint reviews. In addition, BRS received six
                   reports of violations from PPQ officers, companies, and OIG. BRS also had
                   other information in its files that it could have used to identify five additional
                   violations. Thus, for 11 of the 15 violations identified during our audit, BRS
                   had enough information to take administrative action, such as issuing a letter
                   of warning. However, our review of BRS’ compliance infraction database
                   found that, as of December 17, 2003, none of the 11 violations was recorded.
                   Although we found that BRS sent a guidance letter on 1 of the violations, it
                   took no action on the other 10 violations (see Finding 5).

                   BRS advised us that, in 2004 and 2005, a new compliance branch
                   subsequently began following up on compliance reports by auditing,
                   reviewing, analyzing, and closing over 30 alleged violations.

                   APHIS also needs to further refine its procedures for selecting field test sites
                   for inspection. At the time of our audit, the selection procedures were
                   undocumented. APHIS advised us that, in April 2004, it began assigning risk
                   scores to notifications, using a documented methodology, in order to direct
                   PPQ inspections to higher risk GEOs. However, as before, the lists of
                   notifications did not identify the exact locations of planted sites. Instead, the
                   lists identified only the number of sites in each State. An APHIS official told
                   us that APHIS plans to modify the risk scoring system as the agency gains
                   experience with it.

                   Finally, we found that APHIS needs to document its procedures for
                   approving applications—a function currently left to the judgment of
USDA/OIG-A/50601-8-Te                                                                        Page 9
                   individual APHIS biotechnologists. To manage and track the volume of field
                   test information it receives and reviews, APHIS also needs an effective,
                   comprehensive management information system. At the time of our audit,
                   APHIS lacked such a method of tracking field test data, including inspection
                   reports and field test progress reports (see Findings 5 and 6). In 2005, APHIS
                   implemented an interim inspection tracking system pending implementation
                   of a comprehensive management information system.

                   We concluded that, to establish a cohesive oversight process for GE field
                   releases, APHIS must continue to strengthen both its regulations and its
                   internal management practices.

Recommendation 1

                   Revise and consolidate policies, procedures, and regulatory requirements for
                   GE field releases.

                   Agency Response.

                   APHIS stated that this recommendation is consistent with the priorities set by
                   BRS, including the revision of its regulations. APHIS stated that it will
                   publish a draft programwide EIS in early 2006 and a proposed rule will
                   follow. Rules are developed through public notice and comment, and
                   therefore can take several years for completion. In addition, BRS has begun
                   the consolidation and revision of guidance materials into a single User’s
                   Guide and expects to have a draft version completed in the spring of 2006.

                   OIG Position.

                   We agree with APHIS’ planned corrective actions. To reach management
                   decision, APHIS needs to provide estimated timeframes for implementation
                   of the new regulations and the revised User’s Guide.

Recommendation 2

                   Revise and clarify policies and regulations regarding the use of metal
                   shipping containers.

                   Agency Response.

                   APHIS stated that it will clarify the shipping container requirements for
                   permits and notifications in the revised regulations and User’s Guide. BRS
                   has begun the consolidation and revision of guidance materials into a single
                   User’s Guide and expects to have a draft version completed in the spring of
                   2006.

USDA/OIG-A/50601-8-Te                                                                    Page 10
                   OIG Position.

                   We agree with APHIS’ planned corrective actions. To reach management
                   decision, APHIS needs to provide estimated timeframes for the
                   implementation of the revised regulations and User’s Guide.

Recommendation 3

                   Update regulations to incorporate the provisions of the Plant Protection Act
                   of 2000.

                   Agency Response.

                   APHIS stated that it will publish a draft programwide Environmental Impact
                   Statement (EIS) in early 2006. The EIS lays the foundation for a proposed
                   rule to follow. The rule will include the provisions of the Plant Protection Act
                   of 2000.

                   OIG Position.

                   We agree with APHIS’ planned corrective action. To reach management
                   decision, APHIS needs to provide an estimated timeframe for implementation
                   of the new regulations.

Recommendation 4

                   Prioritize completion of the management information systems to track all
                   information on permits and notifications.

                   Agency Response.

                   APHIS stated that BRS is implementing an ePermits tracking system that is
                   nearly complete and is expected to be accepting electronic submissions of
                   notifications in December 2005. It will later be expanded to accept permit
                   applications and to give PPQ inspectors access to field test design protocols
                   and field test conditions. A second system tracking permit and notification
                   inspection and field data reports, the Biotechnology Integrated Database
                   System (BIDS), is fully developed and only awaits final review by the Office
                   of the Chief Information Officer.

                   OIG Position.

                   We agree with APHIS’ planned corrective action. To reach management
                   decision, APHIS needs to provide the estimated timeframe for
                   implementation of the ePermits tracking system and BIDS. Specifically, for
                   the ePermits tracking system, APHIS needs to provide the estimated
USDA/OIG-A/50601-8-Te                                                                     Page 11
                   completion dates for each phase of the ePermits tracking system: notification
                   submissions, permit submissions, PPQ remote access to design protocols, and
                   PPQ access to BRS imposed field test requirements.

Recommendation 5

                   Develop policy guidelines that address restricting public access to edible
                   regulated GE crops, based on the risk of the type of crop, when conducting
                   field tests.

                   Agency Response.

                   APHIS disagrees with this recommendation. APHIS understands that the
                   intent of this recommendation is to assure food safety. However, APHIS
                   stated that the system of science-based risk assessment that is currently in
                   place already addresses this issue. BRS can, for example, use permit
                   conditions to require restricted access for any special cases where it might be
                   deemed appropriate based on risk. The need for restricted access is most
                   effectively addressed on a case-by-case basis where the biotechnologist can
                   consider the type of trial, potential risks of the organism, and other
                   information specific to the permit such as the exact site and locale.

                   FDA has supported the APHIS requirements and practices for edible
                   regulated GE crops that have not undergone or completed FDA food safety
                   review. FDA has authority over the safety of plant foods, including food
                   from deregulated GE plants.

                   OIG Position.

                   We can not accept APHIS’ management decision for this recommendation.
                   To reach management decision, APHIS needs to provide its science-based
                   risk assessment of regulated GE crops. APHIS also needs to provide FDA’s
                   food safety review and approval of APHIS requirements and practices for
                   edible regulated GE crops.




USDA/OIG-A/50601-8-Te                                                                    Page 12
Section 2. Application Process

                                       Although APHIS is responsible for overseeing regulated GE crops and seeds,
                                       we found that, during the application process, the agency does not obtain
                                       certain critical information that it needs to carry out its oversight
                                       responsibility. Instead, APHIS relies on permit and notification holders to
                                       supply the necessary information at the time of field test inspections.
                                       Furthermore, we found that APHIS biotechnologists do not thoroughly
                                       document their scientific reviews of the information that applicants are
                                       required to submit.

                                       Companies and organizations that wish to field test a regulated GEO must
                                       obtain APHIS approval by applying for either a permit or notification.

                                       •     The notification procedure is a simple, streamlined method of obtaining
                                             APHIS permission to introduce GEOs that APHIS considers relatively
                                             low-risk. To qualify, GEOs must meet specific eligibility criteria
                                             established by APHIS, and the applicant must agree to comply with
                                             performance standards designed to ensure biological confinement of the
                                             GE crop. 10

                                       •     GE crops that do not qualify for the notification process require permits,
                                             which are used for experimental plants that APHIS considers higher risk,
                                             such as plants that produce pharmaceutical and industrial compounds.
                                             Permit applications require more detailed information about the field test,
                                             and APHIS evaluates them more closely than applications for
                                             notifications.

                                       We found that APHIS is not aware of the locations of all planted GE field test
                                       sites, weakening its oversight of the field release program. APHIS does not
                                       always require permit and notification applicants to identify the precise
                                       location of field sites where they plan to plant experimental GE crops, nor
                                       does it follow up with approved applicants to obtain this information once the
                                       crops are in the ground. In fact, APHIS may know only the business address
                                       or State and county where the field is planted. We also found that, even
                                       though the vast majority of field tests are conducted under notifications,
                                       notification applicants are not required to submit their written protocols,
                                       which describe how the applicant plans to contain the GE crop within the
                                       field test site. Instead, APHIS allowed applicants to verbally discuss their
                                       written protocols at the time APHIS conducted its field test inspections. On
                                       May 2, 2005, APHIS revised its approval letter for notifications to require
                                       written protocols at the time of inspection.




10
     Performance standards are detailed in 7 CFR 340.3©, dated January 1, 2003.

USDA/OIG-A/50601-8-Te                                                                                          Page 13
                                     Given the increasing numbers of field test applications each year—from 9
                                     requested applications in 1987 to over 950 in 2004—APHIS must take action
                                     to strengthen its controls over the application process.




Finding 2                            Locations of Planted GE Field Test Sites Are Not Always Known

                                     APHIS cannot fulfill its responsibility to oversee GE field tests without
                                     knowing the exact locations of planted field test sites. We found that
                                     APHIS does not consistently collect precise location information during the
                                     field test process, either at the time of application or while the field test is
                                     underway. For our sample of 91 field tests, 11 the applications did not disclose
                                     the exact locations. In fact, we found that four companies that held either a
                                     permit or notification did not have location information readily available for
                                     some of their planted field test sites. APHIS’ lack of a master list identifying
                                     where GE crops are planted impairs its ability to monitor compliance with
                                     field test requirements.

                                     Precise Locations Not Included in Application

                                     APHIS regulations in effect during 2002 and 2003 state that applicants
                                     requesting approval to field test a regulated article under the notification
                                     process must provide the field site location for the release. 12 Applicants
                                     requesting a permit are required to provide a detailed description of the field
                                     trial location of the regulated article. 13 Despite the regulations, APHIS
                                     officials told us that applicants cannot determine the exact site locations with
                                     any accuracy prior to planting. Because the regulations do not specify the
                                     kind of location information applicants must submit, APHIS receives a
                                     variety of location descriptions, many of which are not sufficient to locate the
                                     field test site. Of the 23 permit applications 14 we reviewed, 85 percent
                                     indicated the company’s business address as the planting location. Of the 28
                                     notification applications 15 we reviewed, none specifically identified field site
                                     locations.

                                     On January 14, 2004, APHIS issued a letter to pharmaceutical and industrial
                                     permit applicants that provided new and updated instructions for submitting a
                                     permit application. Specifically, the letter required submission of GPS
                                     coordinates for all field test sites, after planting, to establish the boundaries of
                                     the site. However, the new requirement for GPS coordinates does not extend



11
   Selected from an universe of 1,020 field test sites, which we developed (see Scope and Methodology).
12
   7 CFR 340.3(d)(2)(iii), dated January 1, 2002 and 2003
13
   7 CFR 340.4(b)(11), dated January 1, 2002 and 2003
14
   Selected from a universe of 32 permits, which we developed (see Scope and Methodology)
15
   Selected from a universe of 228 notifications, which we developed (see Scope and Methodology)

USDA/OIG-A/50601-8-Te                                                                                           Page 14
                                       to notifications or permits other than pharmaceutical and industrial. 16 On
                                       January 24, 2005, APHIS issued a memorandum that requested, but did not
                                       require, notification holders to submit GPS coordinates or other information
                                       to identify the site after planting, effective April 5, 2005. A BRS official
                                       advised us that the notification holders currently provide this information
                                       voluntarily, because the regulations do not require them to submit it.

                                       Supplementary Reports Inconsistent on Location

                                       Because any location information included in the application is submitted
                                       before planting takes place, APHIS needs additional information to locate the
                                       field test sites that have actually been planted. Based on the biotechnologist’s
                                       review of the permit application and experience with the applicant,
                                       APHIS can require permit applicants to provide supplementary reports.
                                       However, we found that, like the field test applications, these supplementary
                                       reports do not always require specific location information that would allow
                                       APHIS to easily locate the field test sites. Furthermore, APHIS does not
                                       uniformly require these reports for all permits, and they are not required at all
                                       for notifications.

                                       Two of the supplementary reports that APHIS requires from some approved
                                       permit applicants are planting notices and 4-week/28-day reports. The
                                       planting notice indicates when a crop is about to be planted, and the
                                       4-week/28-day report provides more detailed information on the field
                                       location once the field test is underway. Our review of 53 permit field sites
                                       included 20 field sites planted under 13 pharmaceutical and industrial
                                       permits. All 13 permit holders were required to submit planting notices and
                                       12 were required to submit 4-week/28-day reports. However, only 8 of those
                                       12 permit holders were required to provide GPS coordinates on their
                                       4-week/28-day reports; three failed to provide this information. Although not
                                       required to do so by APHIS, one permit holder indicated the specific field
                                       site location on the planting notice.

                                       In addition to planting notices and 4-week/28-day reports, APHIS may also
                                       require permit holders to submit harvest/termination notices, which inform
                                       APHIS of the anticipated harvest date for the GE crop. APHIS also requests,
                                       but does not require, that approved notification applicants provide 5 days’
                                       notice if they decide not to proceed with field testing at an approved location;
                                       approved permit applicants are not required to notify APHIS if they decide
                                       not to plant at a proposed field test location. Because it does not always
                                       require harvest/termination notices and decisions not to plant from all permit
                                       and notification holders, APHIS was not aware that 30 of the approved field
                                       test sites in our sample had not been planted or that 8 sites had been
                                       harvested. Without knowing which proposed field test locations have not

16
   The letter also applies to bioremediation permits, which were not covered in this audit. Bioremediation is the use of biological agents, such as bacteria or
plants, to remove or neutralize contaminants, as in polluted soil or water.

USDA/OIG-A/50601-8-Te                                                                                                                             Page 15
                        been planted or have been removed from the ground, APHIS cannot
                        effectively monitor compliance with field test requirements through onsite
                        inspections.

                        Inspections Hindered by Missing Information

                        Lacking a master list of planted field test sites, APHIS must rely on approved
                        applicants or their representatives (cooperators, farmers, planters, or
                        researchers) to provide the exact location of GE crops before a site inspection
                        can be performed. This is not an effective control, especially given that some
                        of the permit and notification holders do not have exact location information
                        readily available. Of the 12 companies we contacted for this information, 4
                        were not able to provide locations for some of their planted GE test sites,
                        even 1 to 2 weeks after our request. One company representative said the
                        company’s information could contain errors or omissions due to the short
                        timeframe, and three others said their lists of planted sites were incomplete.
                        In fact, although 1 representative was able to provide locations for about 350
                        of the company’s field tests, the representative wrote that the company did
                        not have planting and location information on about 1,000 additional field
                        tests. Another representative said that it would take from 1 to 3 months to
                        gather the location information.

                        Additionally, because APHIS does not require all approved applicants to
                        notify the agency when they terminate a field test or decide not to plant, it
                        cannot supply PPQ with a valid list of planted sites to inspect. For example,
                        according to a PPQ regional program manager, an average of 20 percent of
                        the inspection requests his office received from BRS in 2003 and 2004 were
                        for field test sites that had not been planted. Thus, APHIS dedicated valuable
                        resources to compiling inaccurate inspection lists and contacting applicants
                        who had not planted regulated GE crops.

                        Database Inadequate to Track Vital Information

                        To track field test information, APHIS uses a computerized database that was
                        implemented in 1992. Our review of the database found that it does not have
                        data fields to record proposed and planted field test site locations and to track
                        significant events at field test sites. Significant events include planting,
                        harvesting, cancellation, or termination of the field test. The database also
                        does not alert APHIS when requested information is late or has not been
                        received from approved applicants (see Finding 6). According to an APHIS
                        official, the agency is currently working to design a new system that will
                        track all necessary field test information with potential implementation in
                        September 2005.

                    We concluded that, in order to maintain accountability for regulated
                    GE crops, APHIS needs to know precisely where those crops are planted. An
                    APHIS official told us that identifying the precise location of a field test site
USDA/OIG-A/50601-8-Te                                                                       Page 16
                   at the time of application is an unrealistic requirement, because applicants
                   cannot determine the exact site locations with any accuracy prior to planting.
                   However, on January 24, 2005, APHIS issued a memorandum that requested
                   notification holders to submit GPS coordinates or other information to
                   identify the site after planting, effective April 5, 2005. Specifically, the
                   memorandum requested, but did not require, the State, county, internal
                   identification number (if available), central GPS coordinate, or address. The
                   memorandum also requested that notification holders advise APHIS of sites
                   listed in the notification that they do not intend to plant.

                   Although APHIS officials told us that voluntary compliance by major
                   notification holders has been high, APHIS needs to strengthen its reporting
                   requirements for field tests so that inspections can be made at critical stages
                   of the process for permits and at least once for a sample of notifications.

Recommendation 6

                   Revise regulations to require all permit and notification holders to submit
                   planting notices, 4-week/28-day reports, and harvest/termination reports for
                   all field test sites.

                   Agency Response.

                   APHIS agrees in part with this recommendation but disagrees with the
                   requirement for planting notices for the notifications because these notices
                   are necessary only in cases where a preplant inspection is warranted. With the
                   completion of the new regulations, BRS will require the 4-week/28-day
                   reports for all field tests. Thus, BRS will know what has been planted within
                   28 days for all field tests. BRS has already strengthened reporting guidelines
                   for notifications in the 2005 growing season and is currently evaluating the
                   various field report requirements for permits and notifications with the
                   conclusions to be reflected in the new regulations. BRS already requires
                   reports six months after harvest/termination.

                   OIG Position.

                   We can not accept APHIS’ management decision for this recommendation
                   for three reasons.

                   •    BRS is currently evaluating the various field report requirements for
                        permits and notifications. As a result, the corrective action plan is
                        contingent on the results of the evaluation.
                   •    BRS did not propose interim measures that require notification and
                        permit holders to submit 4-week/28 day reports pending release of the
                        new regulations.


USDA/OIG-A/50601-8-Te                                                                    Page 17
                   •    The 6-month field test report is not adequate for a timely
                        harvest/termination notice, because the 6-month field test report is due
                        half a year after the harvest or termination of the field test.

                   To reach management decision, APHIS needs to provide a corrective action
                   plan based on its evaluation of field reporting requirements. APHIS also
                   needs to implement interim measures until its regulations are revised.

Recommendation 7

                   Revise regulations to require all permit and notification holders to submit the
                   GPS coordinates of field test sites on all reports submitted after planting.

                   Agency Response.

                   APHIS stated that this recommendation is consistent with the direction set by
                   BRS and, in fact, BRS has already requested that GPS coordinates of each
                   field site be submitted in 28-day planting reports. Additionally, BRS is
                   incorporating field test location information requirements into its regulatory
                   revisions.

                   OIG Position.

                   We agree with APHIS’ planned corrective action. To reach management
                   decision, APHIS needs to provide an estimated timeframe for implementing
                   the new regulations.

Recommendation 8

                   Revise regulations to require all permit and notification holders to submit
                   notices of decision not to plant if they decide to cancel an approved field test
                   location.

                   Agency Response.

                   APHIS has made revision of its regulations a priority, and this issue will be
                   addressed as part of that process. Currently, this information is already
                   requested of all growers through our guidelines.

                   OIG Position.

                   We agree with APHIS’ planned corrective action. To reach management
                   decision, APHIS needs to provide an estimated implementation date for the
                   revised regulations.



USDA/OIG-A/50601-8-Te                                                                     Page 18
Recommendation 9

                   Complete work on the management information system and ensure that it is
                   capable of recording necessary information related to field test sites,
                   including the specific location of each field site and the dates of significant
                   events.

                   Agency Response.

                   APHIS referenced its response to Recommendation 4. It stated that a new
                   database system is already designed to capture all of the OIG-recommended
                   information and more. BRS is implementing an ePermits tracking system
                   that is nearly complete and is expected to be accepting electronic submissions
                   of notifications in December 2005. It will later be expanded to accept permit
                   applications and to give PPQ inspectors access to field test design protocols
                   and field test conditions. A second system tracking permit and notification
                   inspection and field data reports, BIDS, is fully developed and only awaits
                   final review by the Office of the Chief Information Officer.

                   OIG Position.

                   We agree with the planned corrective action. To reach management decision,
                   APHIS needs to provide timeframes for implementation of the referenced
                   information systems.




USDA/OIG-A/50601-8-Te                                                                    Page 19
Finding 3                              Written Field Test Protocols Are Not Always Obtained From
                                       Applicants

                                       Most field tests of regulated GE crops are conducted under notifications.
                                       APHIS, however, does not require notification applications to include written
                                       protocols, which describe the procedures applicants will use to meet the field
                                       test performance standards prescribed by regulation. 17 Consequently,
                                       protocols do not undergo scientific review by an APHIS biotechnologist prior
                                       to approval of the notification application. Instead, because the procedures
                                       for crops planted under notification are well known, APHIS allows approved
                                       applicants to provide verbal protocols at the time of inspection. This practice
                                       impacts the integrity of both the approval and inspection processes.

                                       Field test protocols detail how applicants will meet the critical performance
                                       standards for introductions of GE crops, including devitalization, monitoring
                                       for volunteer plants, and preventing inadvertent mixing of regulated GE
                                       articles with nonregulated articles. APHIS regulations do not require
                                       notification applicants to submit a written copy of their protocols with the
                                       application. Rather, the regulations state only that APHIS may issue
                                       guidelines regarding scientific procedures, practices, or protocols that it has
                                       found acceptable. A person who wishes to field test a GE crop may follow
                                       APHIS’ protocol guidelines or adopt different protocols. When an applicant
                                       chooses to follow different protocols, the applicant may, but is not required
                                       to, discuss the matter in advance with APHIS to ensure that the protocols will
                                       be acceptable to APHIS. 18

                                       No Scientific Review of Notification Protocols

                                       Because notification applicants are not required to submit their protocols with
                                       the application, APHIS biotechnologists do not review notification protocols
                                       for adequacy prior to granting the notification. An APHIS study issued in
                                       2001 shows that such a preliminary review is necessary. The study, which
                                       covered mid-1997 to 2000, concluded that some notification protocols might
                                       not be adequate to meet the field test performance standards and identified
                                       several major areas in need of improvement. In a letter to its customers dated
                                       March 19, 2001, APHIS addressed those issues by providing guidance on
                                       some plant species’ persistence in the environment, methods to minimize
                                       pollen movement, and elimination of volunteers. However, APHIS did not
                                       implement management controls requiring notification applicants to submit
                                       written protocols with their applications for scientific review, a requirement


17
     7 CFR 340.3©, dated January 1, 2003
18
     7 CFR 340.3, dated January 1, 2003, footnote 5

USDA/OIG-A/50601-8-Te                                                                                        Page 20
                                     that would have enabled APHIS to determine whether performance standards
                                     would be met.

                                     In contrast to the notification application process, APHIS requires permit
                                     applicants to submit a detailed description of the proposed procedures,
                                     processes, and safeguards that will be used to prevent the dissemination of
                                     regulated GEOs at each planned field test site. 19 These higher risk permit
                                     protocols undergo a biotechnologist review for adequacy before the permit is
                                     approved. Until APHIS extends this review to notifications, some notification
                                     protocols may not be adequate, increasing the risk of inadvertent release of
                                     GEOs into the environment.

                                     Contradictory APHIS Guidance

                                     Once it approves the notification application, APHIS does not require
                                     notification holders to provide written protocols during the field test. Our
                                     review of 90 20 notification approval letters found that APHIS allowed all
                                     notification holders to provide verbal protocols to the PPQ inspector; APHIS
                                     regulations 21 do not specify that the protocols must be in writing. However,
                                     APHIS’ inspection manual 22 contradicts the approval letters and the
                                     regulations by directing PPQ inspectors to determine if notification holders
                                     have written protocols and if they are following the protocols. 23 The manual
                                     also states that if the notification holder or cooperator does not have a copy of
                                     the site-specific protocols at the time of inspection, it is a violation of the
                                     notification. This lack of uniform APHIS guidance undermines the inspection
                                     process.

                                     As part of our review, we conducted joint inspections with PPQ officers at
                                     87 24 of the 91 field sites in our sample. When we asked one company for
                                     copies of the protocols for nine of its notification sites, a company
                                     representative advised us that APHIS regulations 25 did not require written
                                     protocols. Instead, the company’s field personnel provided a verbal
                                     description of the protocols. Without a copy of the company’s written
                                     protocols that had been approved by APHIS, the inspectors could not be
                                     certain which protocols the notification holder was following and whether
                                     those protocols met the performance standards. After we completed our field
                                     visits, the company provided the written protocols to us; however, it was too
                                     late for us to determine whether the protocols were followed in the field.

                                     On May 2, 2005, APHIS revised its approval letter for notifications to require
                                     written protocols at the time of inspection. However, in contradiction, the

19
   7 CFR 340.4(12), dated January 1, 2003
20
   This included 28 approval letters from our original sample and 64 added during fieldwork.
21
   7 CFR 340.3, dated January 1, 2003, footnote 5
22
   Biotechnology Inspection Manual for Notification Field Release, page 3.21, March 2002
23
   Biotechnology Inspection Manual for Notification Field Release, page 3.19, March 2002
24
   PPQ officers were not available to accompany us on the inspections of four field sites.
25
   7 CFR 340.3, dated January 1, 2003, footnote 5

USDA/OIG-A/50601-8-Te                                                                                        Page 21
                    revised inspection manual distributed to PPQ officers in February 2005 states
                    that notification protocols do not have to be in writing. To ensure that field
                    test procedures are effective, we concluded that APHIS should require
                    notification applicants to submit protocols in writing at the time of
                    application, review them for adequacy, and ensure that PPQ officers have
                    access to the protocols before they inspect the field site.

Recommendation 10

                    Amend regulations to require applicants for notifications to submit written
                    protocols prior to approval of the field test.

                    Agency Response.

                    APHIS disagrees with this recommendation. While APHIS does evaluate
                    written protocols for permits, it believes that the current system of
                    performance-based regulatory standards for notifications is effective at
                    protecting American agriculture. Based on APHIS’ familiarity with the crops
                    eligible for notification, it does not feel it is warranted to require or review
                    written protocols prior to approval of field tests. Performance-based
                    regulatory standards are commonly used in APHIS and other regulatory
                    agencies, and APHIS’ use of this approach for notifications has been
                    acknowledged as appropriate by the National Academy of Sciences. The
                    intent of the notification procedure is to provide an administratively
                    streamlined process for trials of crop-trait combinations with which APHIS
                    already has a great deal of experience and familiarity.

                    OIG Position.

                    We can not accept APHIS’ management decision for this recommendation.
                    Performance-based regulatory standards do not preclude submission of
                    protocols to APHIS prior to approval of the field test. Performance-based
                    regulatory standards set objectives and desired outcomes without specifying
                    how they are to be achieved, thus giving approved applicants the flexibility to
                    determine how these objectives/outcomes can be met.                   APHIS is
                    relinquishing its regulatory responsibility in favor of self-certification by the
                    notification applicants—namely the applicants merely certify in their
                    notification applications that they will meet the performance standards. Yet,
                    in 2001, APHIS’ own survey of notification protocols found that some
                    protocols may not be adequate to meet the field test performance standards.
                    Without documented approved protocols, APHIS has no basis to determine if
                    the applicant’s procedures meet the performance standards. To reach
                    management decision, APHIS needs to provide its science-based support for
                    its policy that written protocols will not be required or reviewed prior to
                    approval of field tests.


USDA/OIG-A/50601-8-Te                                                                       Page 22
Recommendation 11

                      Require and document biotechnologist reviews of notification protocols to
                      ensure they are sufficient to meet performance standards.

                      Agency Response.

                      APHIS disagrees with this recommendation, referring to its response to
                      Recommendation 10. While APHIS does evaluate written protocols for
                      permits, it believes that the current system of performance-based regulatory
                      standards for notifications is effective at protecting American agriculture.
                      Based on APHIS’ familiarity with the crops eligible for notification, it does
                      not feel it is warranted to require or review written protocols prior to approval
                      of field tests. Performance-based regulatory standards are commonly used in
                      APHIS and other regulatory agencies, and APHIS’ use of this approach for
                      notifications has been acknowledged as appropriate by the National Academy
                      of Sciences. The intent of the notification procedure is to provide an
                      administratively streamlined process for trials of crop-trait combinations with
                      which APHIS already has a great deal of experience and familiarity.

                      OIG Position.

                      We can not accept APHIS’ management decision for this recommendation.
                      Performance-based regulatory standards do not preclude biotechnologist
                      reviews of notification protocols to ensure they are sufficient to meet
                      performance standards. To reach a management decision, APHIS needs to
                      propose an appropriate management control to ensure that protocols meet
                      performance standards.

Recommendation 12

                      Distribute written protocols to PPQ officers to use in conducting inspections
                      of field test sites planted under notifications.

                      Agency Response.

                      APHIS stated that PPQ officers currently have access to written protocols at
                      the field test site. In addition, field test design protocols for notifications will
                      be included in APHIS’ database system (see response to Recommendation 4),
                      which can be accessed by PPQ inspectors prior to their inspections.

                      OIG Position.

                    We can not accept APHIS’ management decision for this recommendation.
                    Like the approved notifications, the protocols are important control
                    documents that the PPQ officers should receive from APHIS before the
                    inspection. The field design protocols, mentioned in APHIS’ response, are
USDA/OIG-A/50601-8-Te                                                                Page 23
                                   only examples of possible protocols for certain crops. Since notification
                                   holders are not required to follow these examples, deviations from the
                                   examples are not violations. To reach management decision, APHIS must
                                   obtain and distribute written protocols to PPQ officers as a part of the
                                   applications it already distributes to PPQ.




Finding 4                          Scientific Reviews of Field Test Applications Are Not Sufficiently
                                   Documented

                                   In our review of the official files for 10 pharmaceutical permits, we found
                                   little documentary evidence of the scientific reviews performed by APHIS
                                   biotechnologists. We attributed this to the fact that APHIS biotechnologists
                                   do not follow a standardized process to document scientific reviews of permit
                                   applications. APHIS also has not issued policies and procedures requiring
                                   supervisory reviews of the biotechnologists’ work. Although the
                                   biotechnologists’ current application reviews may be adequate, documented,
                                   standardized processes and supervisory review help ensure that the scientific
                                   reviews are consistent and sufficient for approving the introduction of
                                   regulated GE crops, including pharmaceuticals and industrials.

                                   OIG is not equipped to evaluate the scientific adequacy of individual
                                   biotechnologist’s reviews, and we did not attempt to do so. However, we
                                   examined the official files to determine what documentation was maintained
                                   to support the scientific review. The Government Accountability Office’s
                                   Standards for Internal Control in the Federal Government 26 states that
                                   internal controls need to be clearly documented and the documentation
                                   should be readily available for examination. Review is one kind of internal
                                   control.

                                   APHIS has not described the biotechnologist review process in detail in the
                                   APHIS BRS Permit Functions Quality Manual, 27 which documents
                                   procedures for processing applications. For permits, APHIS staff explained
                                   that documentation of scientific review is to include the biotechnologist’s
                                   initials on a tracking sheet; a completed form identifying the plant’s genes
                                   and other characteristics; their initials or signature on a letter reporting the
                                   results of the review to the State regulatory personnel where planting was
                                   proposed; and their initials on the APHIS approval letter. Additionally, in
                                   2003, APHIS issued two draft checklists for limited reviews of
                                   pharmaceutical and industrial permit applications. The checklists are specific
                                   to reviewing and approving applicants’ protocols for cleaning equipment and
                                   storage facilities, and for reviewing and approving the applicants’ employee
                                   training programs.

26
     GAO/AIMD-00-21.3.1, dated November 1999
27
     January 31, 2003

USDA/OIG-A/50601-8-Te                                                                                     Page 24
                                       During our fieldwork, we obtained copies of the official files for 10
                                       pharmaceutical permits, 28 which APHIS considers high-risk. Our review
                                       found that the files did not contain sufficient information to disclose the
                                       extent of the biotechnologist’s reviews or the criteria they used to arrive at
                                       their decisions. Although the files contained letters to State regulatory
                                       personnel, we found that other required documentation was not always in the
                                       files. For all 10 of the permits, the tracking sheet was not in the file or not
                                       initialed. For 7 of 10 permits, the form to identify the plant’s genes and other
                                       characteristics was also not in the file or not completed. Furthermore, nine of
                                       the approved permits had not undergone supervisory review, an essential
                                       control over the application approval process.

                                       Even if the required documentation had been present in the files, we
                                       concluded that it would not be sufficient to describe the biotechnologists’
                                       complete review process. Specifically, the documentation was not sufficient
                                       because it did not describe the scope of the biotechnologists’ review of risks
                                       associated with introducing a particular GE plant and how the applicant
                                       planned to mediate those risks. Scientific criteria for approving a field test
                                       application might address the likelihood of the unintentional spread of GEOs
                                       or the establishment of wild GEO populations, and the effects of regulated
                                       GE crops on other species.

Recommendation 13

                                       Develop and implement policies and procedures for documenting the
                                       scientific process and criteria for approving applications, and require
                                       supervisory reviews of biotechnologists’ work.

                                       Agency Response.

                                       APHIS stated that BRS has developed and implemented six new standard
                                       operating procedures related to the scientific review process. BRS is
                                       currently formulating plans for increased documentation and supervisory
                                       review of the process. Many of these plans will be implemented before the
                                       end of fiscal year 2006. However, BRS believes major actions to address this
                                       recommendation will continue to be ongoing to ensure that a continual
                                       process of updating and improvement is in place. Further, the consolidated
                                       User’s Guide under development will articulate our review process and
                                       approval criteria.




28
     Judgmental sample of 10 pharmaceutical permits planted in 2002

USDA/OIG-A/50601-8-Te                                                                                         Page 25
                   OIG Position.

                   We agree with planned corrective actions. To reach management decision,
                   APHIS needs to provide timeframes for implementation of the corrective
                   action described.




USDA/OIG-A/50601-8-Te                                                             Page 26
Section 3. Management and Oversight of Field Tests

                    Permit and notification holders must ensure that planted GE crops do not
                    persist in the environment outside the field test site. Once the field test ends,
                    GE crops must be properly destroyed or disposed of, and the field test site
                    must be monitored for volunteer plants or regrowth of the crop in the
                    following season. At these critical stages of the field test process, effective
                    management and oversight are essential to reduce the risk of inadvertent
                    persistence of regulated GE crops in the environment. We found several
                    weaknesses in APHIS’ controls over field tests—specifically, inspections,
                    reporting from permit and notification holders, and postharvest guidance.

                    Management of Inspections Needs Improvement

                    Two APHIS units, BRS and PPQ, share responsibility for inspections of
                    GE field test sites. BRS manages the overall inspection process, but it relies
                    on PPQ to perform the majority of the inspections; BRS performs few
                    inspections itself. However, at the time of our audit, the two units had not
                    clearly delineated how they would coordinate their inspection-related
                    activities. We found that PPQ did not conduct all inspections of high-risk
                    pharmaceutical crops that were requested by BRS. Also, BRS did not
                    establish objectives for inspecting a specific number of notification field test
                    sites. Therefore, many inspections requested by BRS were not conducted by
                    PPQ. We found that this was because PPQ did not know what APHIS’
                    inspection expectations were for either pharmaceutical/industrial permits or
                    other permits/notifications.

                    In September 2004, BRS and PPQ entered into a MOU to clarify the
                    relationship between BRS and PPQ regarding the inspection program for
                    field test sites. However, we found that the MOU did not cover inspections of
                    nonpharmaceutical and nonindustrial release permits, and movement permits.
                    It also did not commit BRS to provide PPQ with planted notification sites to
                    be inspected, nor did it require PPQ to perform all the inspections requested
                    by BRS.

                    During most of our audit, BRS also did not have an effective means of
                    tracking inspection requests and results. As a result, it was not aware of
                    which sites had been inspected or the total number of inspections performed.
                    At the end of our audit, in 2005, BRS advised that it had implemented an
                    interim system for tracking inspections, while a new system is being
                    developed.




USDA/OIG-A/50601-8-Te                                                                       Page 27
                                         Reporting Problems Not Addressed

                                         APHIS requires various reports from permit and notification holders at
                                         different points in the life cycle of the GE crop, from advance notice of
                                         planting to the final field test results required from all approved applicants.
                                         We found that permit and notification holders often submitted the required
                                         reports late or not at all. Because it does not have an effective system for
                                         tracking receipt of field test progress reports, APHIS does not always follow
                                         up on late and missing reports or assess penalties for noncompliance.

                                         Postharvest Guidance Incomplete

                                         At the conclusion of the field test, APHIS requests that permit and
                                         notification holders properly dispose of all GE plant material and monitor
                                         their field test sites to ensure that volunteer plants do not persist in the
                                         environment during the following growing season. However, we found that
                                         APHIS has not established timeframes for promptly devitalizing crops at the
                                         conclusion of the field test. APHIS also does not require permit holders to
                                         notify it of the final disposition date of high-risk GE harvests.

                                         Although APHIS has taken positive steps toward remedying inspection
                                         problems during our audit, it needs to continue strengthening its field test
                                         inspections, reporting process, and postharvest guidance in order to carry out
                                         one of the goals of its strategic mission: ensuring the safe release of
                                         agricultural biotechnology.




Finding 5                                APHIS Needs to Establish an Effective Inspection Program to
                                         Monitor Regulated GE Crops

                                         APHIS was not using its inspection authority effectively to monitor field tests
                                         of GE crops. We found that, until 2004, APHIS lacked a formal risk-based
                                         process for selecting field test sites for inspection and that the majority of
                                         assigned inspections were not completed. Specifically, APHIS announced to
                                         the public that pharmaceutical and industrial field sites would be inspected 5
                                         times during the 2003 growing season, but, in fact, we found that only 1 of 12
                                         sampled pharmaceutical field test sites met this requirement. Additionally,
                                         46 percent of the notifications 29 APHIS selected for inspection were not
                                         inspected. We also noted that inspectors did not always report violations at
                                         field test sites, and APHIS did not follow up on all violations that were
                                         reported. These problems stemmed from APHIS’ lack of clear, complete
                                         inspection requirements, as well as a lack of coordination between BRS and
                                         PPQ, the APHIS units that share responsibility for monitoring GE field test

29
     Field test sites with releases ending during or after June 2002, the month in which BRS’ responsibilities for biotechnology began.

USDA/OIG-A/50601-8-Te                                                                                                                     Page 28
                                        sites. As a result, APHIS had little assurance that field tests are being
                                        conducted safely, in a way that minimizes the potential for GE plants to
                                        persist in the environment.

                                        APHIS regulations, dated January 1, 2003, 30 do not specify the number of
                                        inspections required at GE field test sites or how field test sites should be
                                        selected for inspection. Instead, BRS and PPQ followed an informal process
                                        to carry out inspections of GE field test sites. Although BRS had no
                                        documented process for selecting field test sites before 2004, a BRS official
                                        told us that BRS forwarded all permits and a sample of 10 to 12 percent of
                                        approved notifications to 2 PPQ regional managers for inspection. The PPQ
                                        regional managers then distributed the requests for inspections to the
                                        appropriate APHIS State plant health director for assignment to PPQ officers.

                                        Although APHIS had not issued inspection requirements directly to BRS and
                                        PPQ, APHIS announced in the Federal Register on March 10, 2003, that all
                                        field test sites planted under pharmaceutical and industrial permits may be
                                        inspected seven times—up to five times during the growing season and twice
                                        during the postharvest period. In a March 6, 2003, press conference, making
                                        a public commitment to this goal, an APHIS official assured the public that
                                        all pharmaceutical and industrial sites would be inspected five times during
                                        the growing season and two times during the postharvest period. For all other
                                        permits and selected notifications, an APHIS official told us that PPQ
                                        attempted to inspect at least one field test site planted under each permit or
                                        notification. However, at the time of our audit, we found that PPQ did not
                                        know what APHIS’ inspection expectations were for either
                                        pharmaceutical/industrial permits or other permits/notifications.

                                        Requested and Required Inspections Not Performed

                                        PPQ did not inspect all pharmaceutical and industrial field test sites planted
                                        in 2003 five times during the growing season, contrary to the inspection
                                        guidelines APHIS announced to the public and published in the March 2003
                                        Federal Register. In fact, only 1 of our sample of 12 pharmaceutical and
                                        industrial sites planted in 2003 had all 5 required inspections. Only 18 of the
                                        55 (11 x 5) potential inspections were performed for the remaining 11 sites in
                                        2003. According to the Federal Register notice and APHIS management,
                                        PPQ also should have inspected pharmaceutical and industrial fields planted
                                        in 2002 twice during their postharvest period in 2003. We found that only
                                        7 of the 14 (7 sites x 2) potential inspections were performed for our sample
                                        of 7 pharmaceutical sites planted in 2002. Because PPQ did not conduct all
                                        postharvest inspections, the following potential violation at a high-risk
                                        pharmaceutical field test site went undetected:



30
     7 CFR 340, dated January 1, 2003

USDA/OIG-A/50601-8-Te                                                                                         Page 29
                                      •    In September 2003, we visited a field test site where a permit holder had
                                           planted a pharmaceutical crop in 2002. PPQ had not inspected the site
                                           during the postharvest monitoring period in 2003. When we visited the
                                           site, we learned that the permit holder’s cooperator had planted soybeans
                                           on the field, violating APHIS requirements that restrict the production of
                                           food and feed crops at pharmaceutical and industrial GE field test sites in
                                           the following season. 31 Those GE field test sites are to be left fallow in
                                           the following growing season so that volunteer GE plants are not
                                           inadvertently harvested with an unregulated food crop. Although the
                                           cooperator’s 2003 monitoring record stated that the 2002 GE field was
                                           fallow, the cooperator told us that he had planted unregulated soybeans in
                                           the former GE field and cut them down the day before our visit. He left
                                           the soybeans standing in the larger field surrounding the former GE field.

                                      We also found a similar incident at a field test site that PPQ inspected only
                                      once during the 2003 postharvest monitoring period. The cooperator planted
                                      unregulated soybeans in 2003 on the same acreage where a pharmaceutical
                                      crop was planted during the 2002 growing season. However, the PPQ officer
                                      did not report this as a violation to BRS (see “Inspection Results Not
                                      Reported or Tracked” 32 below).

                                      According to BRS records, a total of 906 notifications were referred to PPQ
                                      for inspection. Our review found that PPQ conducted only 485 inspections, or
                                      approximately 54 percent of those requested. Thus, for 46 percent of the
                                      notifications that should have been inspected, APHIS had no assurance that
                                      field tests were conducted in accordance with regulations.

                                      Neither BRS nor PPQ was aware of the number of inspections completed.
                                      Despite previous OIG audit recommendations to develop an inspection
                                      tracking system, 33 BRS lacked an adequate method of accounting for all
                                      inspections and their outcomes, including inspections of high-risk
                                      pharmaceutical fields. Although PPQ’s Western region used a database to
                                      track some inspections, PPQ’s Eastern region did not have a similar tracking
                                      system. The Eastern region’s PPQ manager stated that, if BRS requested a
                                      field test inspection for a specific permit and BRS did not receive the
                                      inspection report, it was BRS’ responsibility to follow up and ensure the
                                      inspection was completed. BRS, however, did not have a followup process to
                                      determine if requested inspections were completed.

                                      At the end of our audit, in 2005, BRS advised that it had implemented an
                                      interim system and procedures for initiating, numbering, tracking, and
                                      receiving written followup on every inspection. It is using the interim system


31
   Federal Register, section II.1.B, March 10, 2003
32
   Field test sites with releases ending during or after June 2002, the month in which BRS’ responsibilities for biotechnology began.
33
   In Audit Report 33099-9-Hy, dated August 1994, OIG recommended that APHIS’ Biotechnology, Biologics and Environmental Protection, a
predecessor of BRS, work with PPQ to develop procedures to account for and verify all PPQ inspection reports, noting violations or potential violations.

USDA/OIG-A/50601-8-Te                                                                                                                         Page 30
                                      while a new system is being developed. The effectiveness of the interim
                                      system has not been reviewed or tested by OIG.

                                      Selection Process Not Documented or Site-Specific

                                      Prior to April 2004, APHIS’ process of selecting notifications from the BRS
                                      database and forwarding them to PPQ for inspections was undefined and
                                      ambiguous. We found that BRS had not documented how it selected its
                                      sample of 10 to 12 percent of notifications for inspection. According to an
                                      APHIS official, the notification sample was selected based on risk factors—
                                      such as crops with new gene variations, applicants who had not conducted
                                      field tests before, and applicants with previous violations. However, we
                                      found no documentation of the risk factors used to select notifications for
                                      inspection.

                                      APHIS advised us that, in April 2004, it began using a documented
                                      methodology to assign risk scores to notifications and direct PPQ inspections
                                      to higher risk GEOs. An APHIS official also told us that APHIS plans to
                                      modify the risk scoring system as the agency gains experience with it.
                                      However, as before, rather than selecting specific field test sites for
                                      inspection, BRS forwards entire permits and notifications to PPQ, even
                                      though each permit or notification may cover numerous field test sites. PPQ
                                      then decides which field test site to inspect under a given permit or
                                      notification, sometimes based on how convenient the site is for the inspector
                                      to visit. APHIS should select specific field test sites for inspection according
                                      to their risk level. As discussed in Finding 2, however, APHIS could not
                                      select specific sites for inspection because APHIS did not always know if,
                                      and where, approved field test sites were planted. Consequently, APHIS had
                                      no assurance that the highest risk field test sites were being selected for
                                      inspection.

                                      Inspection Results Not Reported or Tracked

                                      BRS and PPQ sometimes failed to follow their own internal procedures for
                                      reporting noncompliance with regulations. PPQ officers did not always
                                      prepare inspection reports and did not always report violations of
                                      regulations 34 found during our joint review. During our joint inspections with
                                      PPQ officers, we found a pharmaceutical site that was not left fallow and two
                                      cases where monitoring records for pharmaceutical crops were not
                                      maintained by the cooperators. We also identified one applicant who had
                                      exceeded the approved acreage to plant under notification. The PPQ officers
                                      did not report these violations to BRS.

                                      We also found that BRS failed to take action on 11 violations—6 violations
                                      reported to BRS by PPQ officers, approved applicants, and OIG and 5 other

34
     7 CFR 340.3 and 340.4, dated January 2003

USDA/OIG-A/50601-8-Te                                                                                        Page 31
                    violations that BRS could have identified from information it already had.
                    The six reported violations included a lack of dedicated storage facilities for
                    farm equipment, failure to retain border rows, shipment of a regulated article
                    after the notification expired, two instances of planting with no permit, and
                    one instance of planting in an unapproved location. Regarding the five
                    identifiable violations, BRS failed to compare the permit requirements with
                    the field test progress report, which would have identified two violations of
                    shipping requirements and two violations for planting regulated articles in
                    unapproved locations. BRS also failed to identify another pharmaceutical site
                    that was not left fallow, even though the PPQ officer’s report, while not
                    reporting a violation, mentioned the current crop growing at the site.

                    Our review of BRS’ compliance infraction database found that, as of
                    December 17, 2003, none of the 11 reported or identifiable violations was
                    recorded, and BRS took action on only 1 of the 11 violations. The BRS
                    official maintaining the database could not explain why the compliance
                    infractions were not recorded in the database. The failure to report inspection
                    results and follow up on violations increases the risk of an unauthorized
                    release of regulated GEOs into the environment.

                    In 2004 and 2005, a new compliance branch began following up on all
                    compliance reports by auditing, reviewing, analyzing, and closing over 30
                    alleged violations, but took no action on the remaining 10 violations.

                    By finalizing its inspection tracking system, further defining the relationship
                    between BRS and PPQ, and refining its inspection requirements and selection
                    procedures, APHIS can significantly strengthen the inspection process and its
                    oversight of regulated GE plants.

Recommendation 14

                    Establish requirements for the number of field-site inspections to be
                    performed for permits and notifications.

                    Agency Response.

                    APHIS stated that BRS has always had requirements for field-site
                    inspections. The Compliance and Enforcement Branch has implemented
                    documentation procedures for field-site inspections and strengthened and
                    clarified the requirements for the selection of field sites. APHIS is
                    continuing to strengthen its inspection requirements by developing new
                    procedures for selection of field-site inspections based upon key risk-related
                    factors, and is always updating and improving its procedures based upon
                    experience and new knowledge about risk-related factors. APHIS is also
                    considering additional inspection requirements as it develops its new
                    regulations.

USDA/OIG-A/50601-8-Te                                                                     Page 32
                                       OIG Position.

                                       We agree with the planned corrective action. To reach management decision,
                                       APHIS needs to provide additional information on how APHIS will establish
                                       requirements for the selection of specific field sites and the number of sites to
                                       be inspected and the timeframes for implementation of the corrective actions
                                       described.

Recommendation 15

                                       Develop and implement written policies and procedures for selecting specific
                                       field test sites for inspection based on risk.

                                       Agency Response.

                                       APHIS disagrees with this recommendation, stating that individual field-trial
                                       sites within a given notification or permit are of comparable risk. Once a
                                       notification or permit has been selected for inspection by BRS’ risk
                                       assessment, allowing PPQ inspectors the flexibility to choose the specific
                                       inspection site within the permit or notification encourages more efficient use
                                       of Government resources without compromising safety.

                                       OIG Position.

                                       We can not accept APHIS’ management decision for this recommendation.
                                       The National Academy of Sciences states that “risks must be assessed
                                       according to the organism, trait, and environment.” 35 Thus, the
                                       environment—i.e., the field site location—is an important risk factor that
                                       should be considered in selecting field test sites for inspection. To reach
                                       management decision, BRS needs to issue criteria for assessing
                                       environmental risks as guidance for selecting fields for inspection.

Recommendation 16

                                       Clarify the specific roles and responsibilities of BRS and PPQ in the MOU
                                       regarding the selection and inspection of nonpharmaceutical and
                                       nonindustrial release permits, and movement permits.

                                       Agency Response.

                                       APHIS stated that BRS and PPQ have already established an MOU that
                                       addressed BRS’ inspection requirements for each type of permit, including
                                       nonpharmaceutical and nonindustrial permits, as well as the notifications.
                                       The MOU was originally written in a manner so that responsibilities were
                                       clear to both BRS and PPQ and was implemented without any problems.

35
     National Academy of Sciences, Environmental Effects of Transgenic Plants: The Scope and Adequacy of Regulation, page 63, finding 2-4

USDA/OIG-A/50601-8-Te                                                                                                                       Page 33
                    However, OIG interpreted the language in the MOU differently and
                    suggested that problems could arise. BRS and PPQ have made revisions to
                    the MOU to address this concern.

                    OIG Position.

                    To reach management decision, APHIS needs to provide the details of
                    changes made to the MOU and the date the process was implemented.

Recommendation 17

                    Finalize the inspection tracking system and ensure that it is effective in
                    recording the receipt of inspection reports, inspection results, and the number
                    of inspections completed.

                    Agency Response.

                    APHIS stated that this recommendation is consistent with the priorities
                    already set by BRS. BRS currently has a system in place to track all of the
                    recommended data and an improved database system for tracking inspection
                    and field data reports has now been fully developed and will be operational
                    after a final review by the Office of the Chief Information Officer (see
                    response to Recommendation 4).

                    OIG Position.

                    We agree with the planned corrective action. To reach management decision,
                    APHIS needs to provide timeframes for implementation of the corrective
                    actions described.

Recommendation 18

                    Finalize and implement management controls to require reporting of all
                    inspections to BRS for review and followup on violations of regulations.

                    Agency Response.

                    APHIS stated that the problems cited by OIG are currently addressed by an
                    interim system already in place. Now that these management controls are
                    operational, they will be consolidated into BIDS to increase the automation
                    of the process (see response to Recommendation 4). APHIS’ management
                    controls are designed to assure that inspectors complete reports for all
                    inspection assignments and that compliance officers review these reports and
                    follow up with appropriate correspondence or enforcement actions when
                    noncompliance incidents are reported.


USDA/OIG-A/50601-8-Te                                                                     Page 34
                                      OIG Position. We agree with the planned corrective action. To reach
                                      management decision, APHIS needs to provide timeframes for
                                      implementation of BIDS.




Finding 6                             Field Test Progress Reports Are Not Adequately Monitored

                                      In addition to inspections, APHIS monitored compliance with field test
                                      regulations during 2002 and 2003 by requiring various reports from permit
                                      and notification holders during the field test. These reports contain important
                                      information on the status of the field test site and the results of the field test,
                                      including any detrimental environmental impacts. We found, however, that
                                      APHIS had not established an adequate system to monitor the receipt of
                                      required progress reports by permit and notification holders. Without such a
                                      system, APHIS cannot effectively follow up on, or assess penalties for,
                                      missing and late reports. Unless APHIS receives, tracks, and reviews all
                                      required reports from permit and notification holders, progress reporting does
                                      not serve its purpose as a control to monitor compliance with field test
                                      requirements.

                                      APHIS regulations require all permit and notification holders to submit a
                                      field test data report within 6 months of termination of the field test. 36 The
                                      field test data report, also called the 6-month report, documents the methods
                                      of observation, resulting data, and analysis of any deleterious effects on
                                      plants, other organisms, or the environment. Based on the biotechnologist’s
                                      review of the application and experience with the applicant and the specific
                                      crop, some approved permit applicants are also required to submit planting
                                      notices, 4-week/28-day reports, or harvest/termination notices. The planting
                                      notice indicates when a crop is about to be planted; the 4-week/28-day report
                                      provides more detailed information about the field once it is planted; and the
                                      harvest/termination notice notifies APHIS when the field is to be harvested or
                                      the field test terminated, indicating the start of the monitoring period.




36
  7CFR 340.3(d)(4) and 7 CFR 340.4(f)(9), dated January 1, 2003, state that field test reports must be submitted to APHIS within 6 month “after
termination of the field test.” Since APHIS guidance was unclear, and the regulation states “termination of the field test,” we determined the due date
using field destruction dates (when that data was available) and harvest dates (when no field destruction date was available).



USDA/OIG-A/50601-8-Te                                                                                                                           Page 35
                                      Reports Not Submitted or Submitted Late

                                      Our analysis of required reporting for high-risk pharmaceutical and industrial
                                      permits, other permits, and notifications in our sample found that applicants
                                      did not always submit progress reports in a timely manner, if at all. To
                                      determine reporting requirements, we reviewed regulations, permit
                                      conditions, and/or supplemental permit conditions for our sample sites. 37

                                      Pharmaceutical/Industrial Permits

                                             For all pharmaceutical and industrial permits, approved applicants are
                                             required to submit field test data reports; all pharmaceutical and
                                             industrial permits also require planting notices and/or harvest notices,
                                             and most require 4-week/28-day reports. We reviewed required reports
                                             for 1 industrial and 12 pharmaceutical permits for 22 field test sites38 and
                                             found that APHIS could not produce 11 of the 20 field test data reports
                                             (55 percent) due from pharmaceutical and industrial permit holders. Our
                                             review also showed that APHIS could not produce 36 percent of the
                                             planting notices, 10 percent of the 4-week/28-day reports, and 45 percent
                                             of the harvest notices that were due from the permit holders.

                                      •      Other Permits

                                             All of the other permits in our sample required field test data reports, but
                                             only some required planting notices, 4-week/28-day reports, and/or
                                             harvest notices. We reviewed a total of 52 field test sites authorized
                                             under 18 other approved permits and found that APHIS could not
                                             produce 24 of the 43 field test data reports that were due (56 percent). Of
                                             the 52 field test sites, APHIS required planting notices for 48 sites,
                                             4-week/28-day reports for 2 sites, and harvest notices for 47 sites.
                                             APHIS did not receive 10 of 47 (21 percent) of the planting notices and
                                             16 of 41 (39 percent) of the harvest notices due. However, APHIS did
                                             receive all required 4-week/28-day reports.

                                      •      Notifications

                                             Finally, we reviewed documentation for a total of 113 field test sites for
                                             88 approved notifications. Regulation requires approved applicants for
                                             notifications to submit a field test data report to APHIS. Our analysis
                                             showed that 11 of 73 (15 percent) of the field test data reports due were
                                             not submitted to APHIS. Of the 62 reports (73 – 11 = 62) that were

37
   At each sample site, we reviewed the site’s planting records and GEO field releases (plantings) for FYs 2002 and 2003. We then reviewed records for
these additional field releases to determine reporting requirements. Thus, the results of our review include our complete sample plus our review of the
documentation of additional plantings identified during our field visits. Finally, we reviewed information collected at APHIS, information collected at the
field sites during our visits, and information provided by APHIS to determine which required reports had been received by APHIS.
38
   Because APHIS does not keep track of how many field test sites are planted under permits and notifications, we determined individual field test sites
associated with permits and notifications based on our sample universe and information obtained during field site visits.

USDA/OIG-A/50601-8-Te                                                                                                                           Page 36
                                             submitted, 28 of 62 (45 percent) were submitted late. Six-month field
                                             test data reports were not due on 33 notification sites during the time of
                                             our fieldwork. There was not enough information for us to make a
                                             determination on seven notification sites. Our analysis is summarized
                                             below:

                                                                         Analysis of Required Reports for
                                                                      113 Field Test Sites under Notifications

                                                                 11     Not submitted
                                                                 28     Submitted late
                                                                 34     Submitted on time (62 – 28 = 34)
                                                                 33     Not due
                                                                  7     Unable to determine

                                                               113      Total field test sites with required reports

                                       Current Database Inadequate to Track All Required Reports

                                       Our analysis of applicant reporting disclosed that APHIS does not have an
                                       effective method, manual or computerized, to determine when or if required
                                       progress reports are submitted. APHIS’ manual filing system does not lend
                                       itself to tracking receipt of reports. According to APHIS officials, progress
                                       reports for notifications are also logged into the computer system APHIS uses
                                       to store field test information. The database has a field to track the date of
                                       receipt of the 6-month field test report for notifications, but only one date
                                       and, thus, only one field test data report can be tracked, even though many
                                       notifications cover numerous field test sites. For permits, APHIS does not
                                       track the date of receipt of the 6-month field test report and other required
                                       reports in the database. APHIS officials informed us that an updated database
                                       capable of tracking field test progress reports for both permits and
                                       notifications is being developed, and it is expected to be implemented in the
                                       fall 2005.

                                       Unclear Due Date for Field Test Data Report

                                       Our analysis of missing and late reports was further complicated by the
                                       unclear due date for the field test data report. According to regulations, the
                                       field test data report (commonly referred to as the 6-month report) is due
                                       within 6 months after termination of the field test. 39 This could be interpreted
                                       as 6 months after harvest, 6 months after destruction of the field test site,
                                       6 months after the termination of the last field test (if more than one test is
                                       being performed under a permit or notification), or 6 months after the permit
                                       or notification expires. APHIS defines termination as either harvest of the
                                       crop or destruction of the fields planted under each permit or notification
39
     7 CFR 340.3(d)(4) and 7 CFR 340.4(f)(9), dated January 1, 2003

USDA/OIG-A/50601-8-Te                                                                                                  Page 37
                                       number. On occasion, APHIS has also allowed the report to be submitted
                                       within 6 months after the expiration of the permit or notification, enabling
                                       applicants with multiple field sites under a single permit or notification or
                                       number to combine the information from all plantings into one report.
                                       However, in order to be able to track submission of the field test data report,
                                       APHIS needs to clearly define “termination of the field test” and establish a
                                       firm due date for the report.

                                       Further Coordination Between BRS and PPQ Needed

                                       The weaknesses in coordination between BRS and PPQ, discussed in the
                                       previous finding, were further exemplified by problems tracking required
                                       reports. As a condition of the permit, some permit holders were instructed to
                                       provide planting and harvest/termination notices to the PPQ regional offices
                                       instead of directly to BRS. One PPQ regional manager recorded some
                                       information from the planting and harvest notices into his own computer
                                       system. However, this information was not submitted to BRS, and BRS never
                                       requested the information. To track receipt of required planting and harvest
                                       notices, APHIS needs a management information system that captures all
                                       critical information related to the field test process and is available to
                                       authorized personnel to monitor compliance with performance standards. In
                                       2005, BRS began working to implement changes that will result in all reports
                                       coming to BRS directly.

                                       Available Sanctions Not Imposed

                                       Regulations 40 and permit conditions allow APHIS to withdraw a permit or
                                       deny future permits if conditions of any permit have not been met. We found
                                       that APHIS has not been applying this sanction to applicants who are in
                                       violation of regulations or permit conditions by not submitting required
                                       reports on or before the dates they are due. APHIS also does not always
                                       follow up on reports of violations by applicants.

                                       For example, APHIS’ ineffective management information system allowed
                                       the issuance of 4 permits and 947 notifications to Applicant A from
                                       April 2002 through July 2004, even though it was in violation of permit
                                       conditions by not submitting required planting notices for 1 permit. Similarly,
                                       APHIS issued 68 notifications and 2 new permits to Applicant B despite its
                                       failure to file required planting and harvest notices for 3 previous permits;
                                       Applicant B also did not ensure that APHIS received the field test data
                                       reports in a timely manner. In another example, APHIS did not follow up on
                                       a violation reported three times by Applicant C. Applicant C violated the
                                       regulations by planting regulated articles without a permit. 41


40
     7 CFR 340(g), dated January 1, 2003
41
     7 CFR 340.0(a)(1), dated January 1, 2003

USDA/OIG-A/50601-8-Te                                                                                        Page 38
                    As long as APHIS does not assess penalties for some violations of field test
                    regulations and permit conditions, some approved applicants may become
                    complacent at times about following regulations.

Recommendation 19

                    Finalize the database for recording all information related to field test
                    progress reports for permits and notifications, including planting notices,
                    harvest notices, and cancellation notices, to identify violations.

                    Agency Response.

                    APHIS stated that, in its response to Recommendation 4, BRS is
                    implementing an ePermits tracking system that is nearly complete and is
                    expected to be accepting electronic submissions of notifications in December
                    2005. It will later be expanded to accept permit applications and to give PPQ
                    inspectors access to field test design protocols and field test conditions. A
                    second system tracking permit and notification inspection and field data
                    reports, BIDS, is fully developed and only awaits final review by the Office
                    of the Chief Information Officer.

                    OIG Position.

                    We agree with the planned corrective action. To reach management decision,
                    APHIS needs to provide specific timeframes for implementation of the
                    corrective actions described.

Recommendation 20

                    Clarify guidance to define the term “termination of the field test” and
                    establish a firm due date for field test data reports.

                    Agency Response.

                    APHIS stated that beginning in 2006, BRS will communicate to notification
                    and permit holders clarified guidelines regarding the due dates for field
                    reports and our use of the phrase “termination of the field test.”

                    OIG Position.

                    We agree with the planned corrective action. To reach management decision,
                    APHIS needs to provide timeframes for completion of the corrective actions
                    described.




USDA/OIG-A/50601-8-Te                                                                    Page 39
Recommendation 21

                    Establish and implement controls that require all reports (inspection and
                    progress) be submitted to BRS for tracking and review.

                    Agency Response.

                    APHIS stated that BRS addressed this issue in Recommendations 4 and 18.
                    The problems cited by OIG are currently addressed by an interim system
                    already in place. A system tracking permit and notification inspection and
                    field data reports, BIDS, is fully developed and only awaits final review by
                    the Office of the Chief Information Officer.

                    OIG Position.

                    We agree with the planned corrective action. To reach management decision,
                    APHIS needs to provide the implementation date of BIDS.

Recommendation 22

                    Prescribe procedures for following up on missing and late progress reports.

                    Agency Response.

                    APHIS concurs with this recommendation. The problems cited by OIG are
                    currently addressed by an interim system already in place. The database that
                    tracks completion of field reports and inspections (BIDS) has been developed
                    to identify missing/late reports to compliance staff (see responses to
                    Recommendations 4 and 6).

                    OIG Position.

                    We agree with the planned corrective action. To reach management decision,
                    APHIS needs to provide the implementation date of BIDS.

Recommendation 23

                    Impose sanctions for missing and late progress reports.

                    Agency Response.

                    APHIS stated that BRS already considers a range of responses to missing or
                    late reports that are progressive and are proportional to the nature and
                    magnitude of the violation, up to and including revocation of existing permits
                    or denial of future permits.


USDA/OIG-A/50601-8-Te                                                                    Page 40
                                        OIG Position.

                                        We can not accept APHIS’ management decision for this recommendation.
                                        To reach management decision, BRS needs to provide us with written
                                        policies and procedures delineating when it will impose sanctions and what
                                        actions it will take, if reports are missing or late.




Finding 7                               APHIS Lacks Controls              Over     Final    Disposition     of    GE
                                        Pharmaceutical Harvests

                                        APHIS did not ensure that permit holders actually dispose of GE
                                        pharmaceutical and industrial harvests as indicated on the permit
                                        application—either through devitalization, shipment to another location, or
                                        replanting. Because APHIS controls were not effective to detect whether
                                        disposition of pharmaceutical harvests was timely, we found two sites where
                                        a pharmaceutical permit holder 42 stored large quantities of pharmaceutical
                                        crops for over a year without APHIS’ knowledge. Until APHIS requires
                                        applicants to disclose the date and details of final disposition, harvests of
                                        pharmaceutical and industrial crops could be shipped or disposed of
                                        improperly, possibly entering the food supply or the environment.

                                        APHIS regulations 43 require permit applications to include a detailed
                                        description of the proposed method of final disposition of the GE crop.
                                        However, the regulations do not require applicants to disclose when the
                                        disposition will occur. They also do not require permit holders to submit
                                        periodic post-harvest reports to update APHIS on the quantity and location of
                                        GE material in storage and whether or not the disposition has actually
                                        occurred.

                                        We found that two large harvests of GE pharmaceutical crop were stored for
                                        over a year by Applicant F cooperators (farmers conducting field tests for
                                        Applicant F), even though the permits did not contain information about the
                                        storage period so that it could be assessed by APHIS. During our field site
                                        reviews, we found that an Applicant F cooperator stored more than half a ton
                                        of a GE pharmaceutical crop for 15 months. In another State, 1.4 tons
                                        remained in storage at the cooperator’s farm for 17 months. The cooperators
                                        said that they were waiting for instructions from Applicant F, who eventually
                                        instructed them to ship the harvests back to their headquarters. Although the
                                        permit applications for the field tests in these two States disclosed that the
                                        harvests would be shipped back to Applicant F’s headquarters, they did not
                                        indicate when the shipments would occur. Thus, the lengthy storage of the
                                        pharmaceutical harvests was not approved by APHIS and the safety protocols

42
     Sample field sites that planted pharmaceutical crops in 2002
43
     7 CFR 340.4(b)(14), dated January 1, 2003

USDA/OIG-A/50601-8-Te                                                                                        Page 41
                        of the storage facilities could not be assessed. Also, PPQ did not perform
                        inspections during the extended storage to ensure that the GE crops were
                        safely contained in the facilities.

                        Furthermore, we noted that APHIS’ official records contained no reports
                        from Applicant F indicating that the harvests were in storage. APHIS needs
                        information to determine whether approved applicants are fulfilling permit
                        conditions for high-risk GE crops. Specifically, APHIS must require reports
                        of significant events, including harvest amounts, storage locations, and final
                        disposition, whether by devitalization, shipment, or replanting. Proper
                        periodic reporting would identify violations of performance standards and
                        increase assurance that regulated GEOs will not be inadvertently released.

Recommendation 24

                        Require applicants to disclose in the permit application when they plan to
                        dispose of GE pharmaceutical and industrial harvests.

                        Agency Response.

                        APHIS stated that BRS will request this data to be provided in the field report
                        submitted 21 days prior to harvest, as opposed to inclusion in the permit
                        application, because projected dates are more accurate closer to the end of the
                        growing season.

                        OIG Position.

                        We can not accept APHIS’ management decision for this recommendation.
                        To reach management decision, APHIS needs to establish written policies
                        that require, as a supplemental permit condition, the date of disposition in the
                        field report submitted 21 days prior to harvest and require APHIS’
                        biotechnologists to document their review and approval of the disposition
                        date.


Recommendation 25

                        Require PPQ officers to determine, when conducting post-harvest
                        inspections, if any regulated GEOs are stored and are adequately contained.

                        Agency Response.

                    APHIS stated that inspecting for onsite storage of regulated GE plants is
                    currently a part of our post-harvest inspections. In addition, the worksheet for
                    post-harvest inspections that has been in use for several years includes
                    questions about seed storage and security. Therefore, this recommendation
                    has already been implemented.
USDA/OIG-A/50601-8-Te                                                                       Page 42
                    OIG Position.

                    We accept management decision for Recommendation 25. To achieve final
                    action, APHIS needs to send the Office of the Chief Financial Office,
                    Planning and Accountability Division, its current post-harvest inspection
                    worksheet.

Recommendation 26

                    Require permit holders to timely report the amount, location, and actual
                    disposition of pharmaceutical and industrial GE harvests, including
                    devitalization, shipment to another location, or replanting.

                    Agency Response.

                    APHIS agrees, in part, with this recommendation. APHIS will require
                    additional information about the disposition of materials derived from plants
                    engineered to produce pharmaceutical and industrial compounds, including
                    expected timeframes for devitalization. However, requirements for reports
                    on final dispositions are not necessary to ensure confinement measures are
                    met, because this information is already captured in permit conditions and
                    preharvest reports.

                    OIG Position.

                    We can not accept APHIS’ management decision for this recommendation.
                    APHIS is responsible for regulating biotechnology and, therefore, should
                    know where regulated GE pharmaceutical harvests are being stored and when
                    final disposition occurs. Permit conditions and preharvest reports can
                    provide only estimated dates of final disposition, not actual dates. To reach
                    management decision, APHIS needs to establish procedures that require
                    permit holders to report the amount and location of pharmaceutical harvests
                    and the date of final disposition.




USDA/OIG-A/50601-8-Te                                                                    Page 43
Finding 8                              GE Crops Were Not Promptly Destroyed

                                       Due to a lack of APHIS guidance, applicants did not devitalize GE crops
                                       promptly at the conclusion of three field tests in our sample. Neither APHIS
                                       regulations 44 nor the APHIS “User’s Guide for Introducing Genetically
                                       Engineered Plants and Microorganisms” specify the timeframe for
                                       devitalizing GE crops after they are no longer needed for research. If GE
                                       crops are not devitalized in a timely manner, there is a risk they could be
                                       dispersed in the environment by wind or other elements, field personnel or
                                       visitors, farm equipment, or foraging birds and other animals.

                                       APHIS regulations 45 state that, at the conclusion of the field test, no viable
                                       material should remain that is likely to volunteer in subsequent seasons, and
                                       that volunteers must be managed to prevent persistence in the environment.
                                       Devitalization ensures that the crops do not persist in the environment and
                                       produce offspring. Methods of devitalization include:

                                       •     incorporating into the soil for decomposition;
                                       •     treating with a herbicide;
                                       •     mulching or chipping;
                                       •     exposing to high temperatures by autoclaving, baking, or incineration;
                                       •     exposing to the winter elements (e.g., potato tubers); or
                                       •     composting at a monitored location.

                                       Although nothing came to our attention to suggest that specific instances of
                                       delayed devitalization had negative impacts on the environment, the
                                       following three examples found during our field test site visits demonstrate
                                       the need to establish timeframes for devitalization based on a case-by-case
                                       analysis of risk. All three fields were planted under notifications.

                                       Destruction of GE Crop Delayed

                                       Twenty days after harvest, we found a GE edible crop still in the field.
                                       Although company personnel had harvested the crop on August 20, 2003,
                                       some of the crop was left, cut in half with seeds exposed or lying still whole
                                       in the field on September 9, 2003. The following day, September 10, the
                                       company disced the remaining crop once to devitalize it. Discing left the crop
                                       in pieces, exposing more seeds than on September 9.




44
     7 CFR 340.3 and 7 CFR 340.4, dated January 1, 2003
45
     7 CFR 340.3(c)(6)(i) and (ii), dated January 1, 2003

USDA/OIG-A/50601-8-Te                                                                                          Page 44
                   On October 27, 2003, a company representative advised that they had disced
                   the crop further, so that the field was clean by October 21, 2003. The
                   representative also stated that the field would be monitored for volunteers for
                   a year after harvest. According to the representative, discing is a normal
                   practice and has been accepted for many years by APHIS. From 1997 to
                   2003, APHIS approved one permit and several notifications for the
                   company’s GE research. However, we concluded that delayed discing
                   increases the likelihood that birds or other animals would carry off some of
                   the exposed seeds from the field. In that case, monitoring the field would not
                   prevent the persistence of the GE crop elsewhere in the environment.

                   GE Crop Left in Field

                   On September 10, 2003, we found a GE crop, which had reportedly been cut
                   down sometime between August 13 and August 31, 2003, lying exposed in a
                   field. The crop had formed two border rows that acted as a “pollen sink,”
                   trapping pollen from an adjacent GE field trial. As a pollen sink, the border
                   rows were considered GE crops and should have been devitalized promptly.
                   Instead, the cut rows were left lying on top of the field, as shown in the
                   following photograph. According to an APHIS official, allowing GE crops to
                   lie in the field increases the likelihood that wind and other agents will
                   disperse seeds from the plants.




                   Destroyed east border row, September 10, 2003




USDA/OIG-A/50601-8-Te                                                                    Page 45
                    GE Crop Left in Compost Pile for up to 6 Months

                    For up to 6 months at a time, GE plants and their produce remained piled in a
                    composting area at Applicant G. They were left to dry out so they could be
                    burned.

                    In June 2000, the scientist responsible for the field test sent a copy of the
                    protocols to APHIS, at APHIS’ request. According to the protocols, “stalks
                    of individual plants will be severed at the soil line, allowed to dry and
                    removed to a collection pile for subsequent burning. [Produce] will be
                    collected periodically and buried or burned.” The protocols did not disclose
                    the length of the delay between collecting and devitalizing the produce. In
                    August 2003, the scientist revised the devitalization protocols, but, like the
                    2000 protocols, the new protocols did not disclose the length of the delay
                    between piling the GE plants and produce in the composting area and
                    devitalizing them.

                    According to an applicant representative, rats eat the produce, leaving small
                    holes, but do not bite deeply enough to reach the seeds.

Recommendation 27

                    Establish and implement timeframes for devitalizing GE crops.

                    Agency Response.

                    APHIS agrees with this recommendation. APHIS is committed to developing
                    written standards that specify expected timeframes for devitalization. APHIS
                    has already started the process of developing the science-based standards and
                    will continue to work on this issue to ensure full implementation by early
                    2006.

                    OIG Position.

                    We agree with the planned corrective action. To reach management decision,
                    APHIS needs to provide specific timeframes for implementation of the
                    corrective actions described.




USDA/OIG-A/50601-8-Te                                                                     Page 46
Section 4. Enforcement Actions

                    A key component of APHIS’ regulatory program is its ability to take
                    enforcement action in response to violations of field test regulations. If
                    APHIS detects violations of field test requirements through inspections, or if
                    permit and notification holders fail to submit field test reports, APHIS may
                    take enforcement action. However, we found that APHIS needs to update its
                    regulations to ensure that, if a violation occurs, it will be handled swiftly and
                    effectively.

                    Impacting its enforcement authority, APHIS’ current regulations do not
                    require permit and notification applicants to provide proof of financial
                    responsibility. Thus, in the event of an unauthorized GEO release or other
                    compliance infraction, USDA may have to assume financial responsibility for
                    removing regulated GE crops from the environment or the food supply.




Finding 9           Applicants Are Not Required to Provide Proof of Financial
                    Responsibility

                    APHIS approves applicants to conduct field tests without ensuring they will
                    be able to pay the costs associated with an unauthorized GEO release or other
                    compliance infraction. As a result, USDA may have to assume financial
                    responsibility for removing regulated GE crops from the environment or the
                    food supply.

                    Under current laws and regulations, applicants for permits or notifications are
                    not required to provide proof of financial responsibility as part of the
                    approval process. However, the following two high-profile incidents
                    highlight the need for APHIS to obtain proof of financial responsibility from
                    applicants prior to approving introductions of regulated GE crops.

                    In 2002, for example, Applicant D failed to properly monitor field test sites in
                    two States where a pharmaceutical crop had been planted the previous year.
                    PPQ inspectors found volunteer stalks of the GE crop in both fields, which
                    had been replanted with soybeans. In one State, BRS decided to harvest and
                    destroy the conventional crop planted within a 1,320-foot radius of the
                    soybean field, a total of 155 acres, in case the pharmaceutical crop volunteers
                    had been flowering at the same time as the surrounding conventional crop.

                    In another State, the soybean field was harvested before the pharmaceutical
                    crop’s volunteers were removed from the field. APHIS ordered Applicant D
                    to hold the harvested soybeans while USDA supervised the destruction of the
                    GE volunteers still in the field. Instead, the harvested soybeans were
USDA/OIG-A/50601-8-Te                                                                       Page 47
                    delivered to an elevator, where they were commingled with other harvests.
                    As a result, USDA purchased approximately 500,000 bushels of soybeans
                    that may have commingled with the GE volunteers. Costs to acquire the
                    soybeans were estimated at $2.75 million to $3.75 million. Subsequently,
                    Applicant D agreed to provide proof of financial responsibility consisting of
                    either a deposit of money, liability insurance, or a surety bond before APHIS
                    approval of any future field testing; to pay a civil penalty of $250,000; and to
                    reimburse USDA for costs incurred at the field test site in one of the States.

                    Also in 2002, Applicant E filed for bankruptcy and, according to a former
                    employee, went out of business, during the postharvest monitoring period of
                    a field test of a GE pharmaceutical crop. Applicant E never paid the
                    cooperator who was conducting the field test on the company’s behalf, and
                    APHIS agreed that the cooperator was not legally responsible for monitoring
                    the field for volunteers. Although the cooperator agreed to monitor the field,
                    APHIS may not be able to obtain such assistance in all cases.

                    An Office of the General Counsel official advised us that APHIS currently
                    does not have legislative authority to hold applicants financially responsible
                    for costs incurred by USDA due to unauthorized releases of regulated GEOs.
                    In light of the incidents described above, APHIS should seek legislative
                    authority to require permit applicants to provide proof of financial
                    responsibility to indemnify USDA for costs incurred due to an unauthorized
                    release of a GEO. The required proof of financial responsibility should be
                    based on the level of risk of the GEO and other risk factors, such as the
                    applicant’s experience with the type of GEO and APHIS’ past experiences
                    with the applicant.

Recommendation 28

                    Seek legislative change to obtain the authority to require permit applicants,
                    based on the level of risk, to provide proof of financial responsibility, in the
                    event of an unauthorized GEO release.

                    Agency Response.

                    APHIS stated that it does not have the authority to accept this
                    recommendation. It will, however, refer the matter to the Office of the
                    Secretary, for a policy decision, and further action as appropriate, within
                    30 days.

                    OIG Position.

                    We agree with the planned corrective action. To reach management decision,
                    APHIS needs to provide us with the policy determination made by the Office
                    of the Secretary.

USDA/OIG-A/50601-8-Te                                                                      Page 48
Scope and Methodology
                   Our audit was conducted at APHIS/BRS headquarters located in Riverdale,
                   Maryland; the PPQ Western Regional Office in Ft. Collins, Colorado; and 91
                   field test sites in 22 States. Our audit was conducted between May 2003 and
                   April 2005.

                   We initiated this audit as a result of an audit survey conducted in 2001 of the
                   Department’s controls over the release of GEOs into the environment. Based
                   on our fieldwork, we identified a number of systemic weaknesses in the
                   regulation of field releases of GE crops. Our survey revealed weaknesses in
                   the approval process for field releases, field site inspections, and interstate
                   movements of regulated GEOs.

                   We selected 107 field test sites (comprised of 69 permit sites and
                   38 notification sites) from a universe of 1,020 field test sites (comprised of 32
                   permits and 228 notifications) located in the continental United States and
                   Hawaii. We were unable to inspect 30 sites because they were not planted
                   and another 8 because they had been harvested. We then substituted 22
                   additional sites from our universe for a total of 91 sites (53 sites under 23
                   permits and 38 sites under 28 notifications).

                   Our initial universe of 1,020 field test sites planted or to be planted with
                   regulated GE crops consisted of 982 fields with expected harvest dates during
                   or after September 2003, and 38 fields planted with pharmaceutical GE crops
                   in 2002, which were to be reinspected for volunteers in 2003. Since
                   APHIS did not maintain a list of planted GE fields, we developed our
                   universe by:

                   •    obtaining a list developed by APHIS of fields planted with
                        pharmaceutical crops in 2002 that were to be reinspected for volunteers in
                        2003;
                   •    identifying companies with pharmaceutical permits approved in 2001 and
                        2002 from lists provided by APHIS;
                   •    identifying companies with permits renewed or amended in 2001, 2002,
                        and 2003 from a list provided by APHIS;
                   •    contacting the companies for information about the regulated GE fields
                        that they planted or planned to plant from January 1, 2003, through
                        September 30, 2003;
                   •    reviewing reports from USDA/Agricultural Research Service’s database
                        to identify research that might include field trials of regulated GE crops;
                   •    asking the USDA/Agricultural Research Service to contact our tentative
                        selection of applicants to obtain information about whether they had


USDA/OIG-A/50601-8-Te                                                                      Page 49
                                   planted regulated GE crops from January 1, 2003, through
                                   September 30, 2003;
                               •   reviewing reports in the Current Research Information System 46 to
                                   identify research that might include field trials of GE crops;
                               •   asking APHIS to review our tentative selection of the Current Research
                                   Information System projects to determine whether the research was
                                   regulated by APHIS; and
                               •   asking APHIS to contact the approved applicants (of the regulated
                                   Current Research Information System projects) to obtain information
                                   about whether they had planted regulated GE crops from January 1, 2003,
                                   through September 30, 2003.

                               During the audit, we also drew six separate judgmental samples.

                               •   199 movements made to or from the sampled field test sites in 2002 and
                                   2003 to determine whether applicants complied with regulations for
                                   movement of GE regulated articles. The documentation was obtained
                                   from the personnel at the sampled field sites.
                               •   10 official files for pharmaceutical GEOs planted in 2002 to review the
                                   evidence of BRS scientific reviews. We judgmentally selected the files
                                   from a list that BRS provided showing 2002 pharmaceutical sites that
                                   were to be reinspected in 2003.
                               •   90 notifications to determine whether applicants were required to have
                                   written protocols at the field sites.
                               •   22 field test sites for pharmaceutical and industrial permits to determine if
                                   permit holders were complying with APHIS reporting requirements.
                               •   52 field test sites for other permits to determine if permit holders were
                                   complying with APHIS reporting requirements.
                               •   113 field test sites for notifications to determine if field test data reports
                                   were submitted to APHIS.

                               Our audit was performed in accordance with Generally Accepted
                               Government Auditing Standards. To accomplish the audit objectives, we
                               performed the following steps:

                               •   applicable laws, regulations, and guidance concerning regulated GE
                                   crops;
                               •   reviewed APHIS policies, procedures, and controls concerning GE crops;
                               •   interviewed BRS Headquarters and PPQ regional officials;
                               •   visited field test sites where regulated GE crops were planted;
                               •   interviewed PPQ officers and persons conducting field tests; and
                               •   interviewed cooperators regarding field release operations under permits
                                   and notifications.


46
     A public database administered by USDA’s Cooperative State Research, Education, and Extension Service
USDA/OIG-A/50601-8-Te                                                                                        Page 50
Exhibit A- Agency Response
                             Exhibit A – Page 1 of 10




USDA/OIG-A/50601-8-Te                      Page 51
                        Exhibit A – Page 2 of 10




USDA/OIG-A/50601-8-Te                  Page 52
                        Exhibit A – Page 3 of 10




USDA/OIG-A/50601-8-Te                  Page 53
                        Exhibit A – Page 4 of 10




USDA/OIG-A/50601-8-Te                  Page 54
                        Exhibit A – Page 5 of 10




USDA/OIG-A/50601-8-Te                  Page 55
                        Exhibit A – Page 6 of 10




USDA/OIG-A/50601-8-Te                  Page 56
                        Exhibit A – Page 7 of 10




USDA/OIG-A/50601-8-Te                  Page 57
                        Exhibit A – Page 8 of 10




USDA/OIG-A/50601-8-Te                  Page 58
                        Exhibit A – Page 9 of 10




USDA/OIG-A/50601-8-Te                  Page 59
                        Exhibit A – Page 10 of 10




USDA/OIG-A/50601-8-Te                  Page 60
Glossary of Terms
Applicant               Person who applies for a permit or notification to introduce a GEO.

Border row              A perimeter of non-GE plants surrounding GE plants at a field test site.

DNA                     Deoxyribonucleic acid (DNA). The basis for genetics and heredity, DNA
                        is found within the nucleus of most plant and animal cells.

Devitalization          Methods of rendering transgenic material nonviable (dead) and,
                        therefore, no longer a potential plant pest subject to regulation. Methods
                        could include dry heat, steam heat, crushing, deep burial, and/or
                        chemical treatment.

Disposition             What becomes of the crop after the field test, including harvest for
                        shipment or replanting, or destruction.

Field test              Planting of GE crops in the environment to test their agronomic
                        properties.

Gene                    A segment of DNA that typically codes for a protein. A gene is also a
                        unit of heredity.

Genetic engineering     Process by which DNA from one or more organisms is inserted into the
                        genetic material of a second organism so that the second organism (host)
                        expresses new traits. Also called biotechnology.

Industrial plants       Plants engineered to produce industrial compounds include those plants
                        that meet the following three criteria: (1) the plants are engineered to
                        produce compounds that are new to the plant, (2) the new compound has
                        not been commonly used in food or feed, and (3) the new compound is
                        being expressed for nonfood, nonfeed industrial uses. Industrial uses
                        include, but are not limited to, detergent manufacturing, paper
                        production, and mineral recovery.

Introduction            Importation, interstate movement, or confined release into the
                        environment.

Monitoring              Applicants’ protocol of adequate duration to ensure all plant volunteers
                        have been eliminated.

Movement                To ship, import, receive for transportation, carry, or otherwise transport
                        or move, or allow to be moved into, through, or within the United States.

USDA/OIG-A/50601-8-Te                                                                     Page 61
Notification            A streamlined procedure under APHIS regulations by which regulated
                        articles may be introduced into the environment, such as for a field test.
                        The notification application is submitted at least 30 days in advance of
                        the proposed release into the environment.

Performance standards   A set of six conditions that notification holders must meet in order to
                        ensure containment of the introduced regulated article.

Permit                  A written authorization from APHIS to allow release of a regulated
                        article into the environment. The permit application is submitted at least
                        120 days in advance of the proposed release into the environment.

Permit conditions       APHIS requirements that must be met to prevent the dissemination and
                        establishment of plant pest.

Pharmaceutical plants   Any plant manipulated by recombinant DNA technology to express a
                        gene encoding a biological or drug product.

Pollen sink             A perimeter of nontransgenic plants that surround transgenic plants and
                        acts as a pollen sink for insect pollinators.

Protocols               Description of the methods to be used during the field test to meet the
                        performance standards or permit/notification conditions.

Regulated article       Any organism that has been altered or produced through genetic
                        engineering, if the donor organism, recipient organism, or vector or
                        vector agent belongs to any genera or taxa designated in 7 CFR 340.2,
                        dated January 1, 2003, and meets the definition of plant pest, or is an
                        unclassified organism and/or an organism whose classification is
                        unknown.

Release                 The use of a regulated article outside the physical constraints of a
                        laboratory, greenhouse, fermenter, or other contained structure.

Transgene               A gene transferred into another organism by means of biotechnology.

Transgenic crop         An agricultural crop that expresses one or more transgenes.

Volunteer plants        Plants originating from seeds of a GE crop planted the previous season.




USDA/OIG-A/50601-8-Te                                                                    Page 62
Informational Copies of this report have been distributed to:

Administrator, APHIS
 Attn: Agency Liaison Office                         (9)
General Accountability Office                        (1)
Office of the Chief Financial Officer
 Director, Planning and Accountability Division      (1)
Office of Management and Budget                      (1)




USDA/OIG-A/50601-8-Te                                           Page 63
